       AUDIT OF THE OFFICE OF
COMMUNITY ORIENTED POLICING SERVICES
       GRANT AWARDED TO THE
    CORCORAN POLICE DEPARTMENT
       CORCORAN, CALIFORNIA


       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


      Audit Report GR-90-11-004
             August 2011
                   AUDIT OF THE OFFICE OF
            COMMUNITY ORIENTED POLICING SERVICES
                   GRANT AWARDED TO THE
                CORCORAN POLICE DEPARTMENT
                   CORCORAN, CALIFORNIA

                                EXECUTIVE SUMMARY

       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Grant 2008-CK-WX-0228, in the amount of
$607,945. This grant was awarded to the Corcoran Police Department
(Corcoran) from funds earmarked in the 2008 Consolidated Appropriations
Act to fund “law enforcement technologies and interoperable
communications program, and related law enforcement and public safety
equipment.” 1 The conference report for this funding, which designated
$611,000 for “Corcoran, CA Narcotics and Gang Task Force Equipment,” also
states “the COPS program office is directed . . . to provide funding consistent
with law and Congressional intent.” 2

       On June 25, 2008, Corcoran submitted a grant application to COPS but
did not request funds for technology. Instead, Corcoran requested funding
for the payment of the salaries and fringe benefits for four police officers on
the Kings County Narcotics Task Force, to deter the spread of narcotics in
Kings County. Specifically, funds were sought to accommodate the re-
assignment of four existing police officers from local law enforcement
agencies in the cities of Corcoran, Hanford, Lemoore, and the Kings County
Sheriff’s Office (KCSO) to the county’s narcotics task force. In addition,
grant funds would be used to supplement staffing levels at each of these
local law enforcement agencies as these vacated positions were backfilled
with entry-level police officers. Corcoran is located in Kings County and is
bordered by the cities of Hanford and Lemoore. Its predominant industry is
farming.

      On September 25, 2008, COPS awarded Technology Program Grant
2008-CK-WX-0228, for $607,945, to Corcoran to fund the salaries and fringe
benefits of the four police officers for a period of 4 years. As of

       1
          Pub. L. No. 110-161 (2008). The Office of Management and Budget defines an
earmark as funds provided by Congress for projects or programs where the congressional
direction circumvents the merit-based or competitive allocation process, or specifies the
location or recipient, or otherwise curtails the ability of the Administration to control critical
aspects of the funds allocation process.
       2
         A Congressional rescission on all COPS earmarks reduced the appropriated amount
to $607,945.
February 28, 2011, $599,523 (99 percent) of the grant has funded the
salaries and fringe benefits of the four re-assigned officers on the Kings
County Narcotics Task Force, and the purchase of one radio and some
ammunition.

       COPS was established by the Violent Crime Control and Law
Enforcement Act of 1994 and it is responsible for advancing the practice of
community policing, which promotes the partnership between communities
and law enforcement agencies to proactively reduce crime and to create and
foster a safer environment. Since Fiscal Year 1999, the COPS Technology
Program has awarded $1.53 billion to law enforcement agencies to focus on
the “. . . continued development of technologies and automated systems to
assist state and local law enforcement agencies in investigating, responding
to, and preventing crime . . . COPS developed the program to place
departments at the forefront of innovative technological developments.” 3

Audit Results

      The objectives of this audit were to: (1) assess whether COPS
appropriately funded Corcoran’s Technology Program grant application in
accordance with the 2008 Consolidated Appropriations Act and COPS’
Technology Program requirements; and (2) determine whether Corcoran’s
cost reimbursements claimed under the grant were allowable, reasonable,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the grant. The latter included a review of Corcoran’s
internal control environment; cash management; grant expenditures;
property management; Financial Status Reports (FSR) and Progress
Reports; compliance with additional grant requirements; and program
performance and accomplishments. Our audit objectives, scope, and
methodology are discussed in detail in Appendix I.

      We believe that COPS did not act in accordance with the
2008 Consolidated Appropriations Act when it awarded funds intended for
technology to pay for the salaries and fringe benefits of four police officers.
Instead, COPS approved grant funds for a use prohibited by its own
Application Guide, specifically the payment of sworn police officer salaries.
As a result, we make one recommendation to COPS for it to establish a
process to ensure that it only approves grant applications that comply with
related funding legislation. 4



      3
          COPS Fiscal Year 2008 Application Guide: Technology Program.
      4
         While Corcoran’s intended use of the grant was clear and transparent, it was
nonetheless not a proper submission because it was contrary to the Application Guide.
However, COPS is at fault for making the award based on Corcoran’s flawed application.
                                          - ii -
     With respect to our second objective, we found that Corcoran was in
material non-compliance with grant requirements. Specifically, Corcoran:

       •   Drew down all federal funds in advance rather than on a
           reimbursement basis as required by the grant;

       •   Violated a key grant requirement by not backfilling or requiring one
           of its sub-recipients, Lemoore Police Department, to adequately
           backfill local police officer positions. We viewed this as a
           supplanting indicator, and therefore, we questioned $93,500;

       •   Charged $3,470 of unallowable personnel expenditures to the grant
           for the KCSO deputy’s non-grant-related activities;

       •   Did not have adequate support for $223,659 of grant expenditures
           for the salaries and fringe benefits of the four police officers on the
           Kings County Narcotics Task Force;

       •   Charged $1,200 for the housing and care of a canine police dog that
           was not supported as being primarily used for grant purposes;

       •   Had only an informal, but no written fixed asset policy, and did not
           capitalize a $2,273 radio;

       •   Did not maintain adequate accounting policies or manuals that
           clearly defined staff members’ roles and responsibilities and
           segregation of duties for grant-related transactions;

       •   Did not follow its accounting practice requiring approval prior to the
           expenditure of grant funds;

       •   Failed to submit six FSRs and of the two FSRs that were filed,
           both were inaccurate and one of the two was submitted 39 days
           late; and

       •   Failed to maintain the Department of Homeland Security, U.S.
           Citizenship and Immigration Services’ Form I-9, Employment
           Eligibility Verification forms for grant-related employees. 5
       5
        The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of questioned
costs.

        The purpose of the Form I-9 is to document that each new employee (both citizen and
noncitizen) hired after November 6, 1986, is authorized to work in the United States. All
employees (both citizen and noncitizen) hired after November 6, 1986, and working in the
United States must complete the Form I-9.
                                            - iii -
      Based on the findings relating to Corcoran and its sub-recipients, we
questioned a total of $321,829 and made 12 additional recommendations for
COPS to ensure that Corcoran strengthen its internal controls and other
program areas to fulfill the terms and conditions of the grant.

      These items are discussed in detail in the Findings and
Recommendations section of the report. We discussed the results of our
audit with officials from COPS and Corcoran and have included their
comments in the report, as applicable. Further, we requested from COPS
and Corcoran written responses to our draft report, which we received along
with comments from Corcoran’s sub-recipients (Lemoore, KCSO, and
Hanford) and are included in Appendices IV and V. Our audit objective,
scope and methodology are discussed in Appendix I.




                                   - iv -
                                TABLE OF CONTENTS

INTRODUCTION ............................................................................ 1
      Audit Approach ......................................................................... 2
FINDINGS AND RECOMMENDATIONS............................................ 5
I.    COPS’ Approval of Corcoran’s Technology Program Grant
       Application ............................................................................ 5
         Conclusion ........................................................................... 8
         Recommendation .................................................................. 8
II.   Corcoran’s Administration of the COPS Grant ................................ 9
         Internal Control Environment ................................................. 9
         Drawdowns ........................................................................ 11
         Expenditures ...................................................................... 12
         Reporting Requirements ...................................................... 25
         Compliance with Additional Grant Requirements ...................... 28
         Program Performance and Accomplishments ........................... 28
         Conclusion ......................................................................... 30
         Recommendations .............................................................. 31

APPENDICES:
I.    OBJECTIVES, SCOPE, AND METHOLDOLOGY ......................... 33
II. SCHEDULE OF DOLLAR-RELATED FINDINGS ......................... 35
III. SCHEDULE OF ALL GRANT-RELATED EXPENDITURES ............ 36
IV. CORCORAN, CALIFORNIA POLICE DEPARTMENT RESPONSE . 41
         LEMOORE, CALIFORNIA POLICE DEPARTMENT RESPONSE ....... 52
         KINGS COUNTY, CALIFORNIA SHERIFF'S RESPONSE ............... 55
         HANFORD, CALIFORINIA POLICE DEPARTMENT RESPONSE ...... 57
V.    OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
       RESPONSE .......................................................................... 59
VI. ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
     CLOSE THE REPORT ............................................................ 69
                   AUDIT OF THE OFFICE OF
            COMMUNITY ORIENTED POLICING SERVICES
                   GRANT AWARDED TO THE
                CORCORAN POLICE DEPARTMENT
                   CORCORAN, CALIFORNIA

                                     INTRODUCTION

       The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of a $607,945 grant
(2008-CK-WX-0228) that the Office of Community Oriented Policing Services
(COPS) awarded to the Corcoran Police Department (Corcoran), located in
Corcoran, California. The grant was funded by an earmark in the 2008
Consolidated Appropriations Act, which specified support for “law
enforcement technologies and interoperable communications program, and
related law enforcement and public safety equipment.” 1 Further, the
conference report relating to the Act designated $611,000 for “Corcoran, CA
Narcotics and Gang Task Force Equipment,” and stated “the COPS program
office is directed . . . to provide funding consistent with law and
Congressional intent.” 2

      On June 25, 2008, Corcoran submitted a grant application to COPS but
rather than request funding for technology, it instead requested funding for
the personnel costs of four police officers that were to be assigned to the
Kings County Narcotics Task Force. The purpose of the police officers’
involvement in the narcotics task force was to conduct investigations and
deter the spread of narcotics in Kings County. Specifically, the grant
application stated that grant funding would be used to pay the salaries and
fringe benefits of four existing police officers from local law enforcement
agencies in the cities of Corcoran, Hanford, Lemoore, and the Kings County
Sheriff’s Office (KCSO) for their participation in the county’s narcotics task
force. In addition, the grant application stated that grant funds would be
used to supplement staffing levels at each of these local law enforcement
agencies by backfilling the vacated positions with entry-level police officers.



       1
          Pub. L. No. 110-161 (2008). The Office of Management and Budget defines an
earmark as funds provided by Congress for projects or programs where the congressional
direction circumvents the merit-based or competitive allocation process, or specifies the
location or recipient, or otherwise curtails the ability of the Administration to control critical
aspects of the funds allocation process.
       2
         A Congressional rescission on all COPS earmarks reduced the appropriated amount
to $607,945.

                                               -1-
      On September 25, 2008, COPS awarded Technology Program Grant
2008-CK-WX-0228, for $607,945. As of February 28, 2011, Corcoran had
spent $599,523 (99 percent) of the grant award.

                              EXHIBIT 1
           COPS’ TECHNOLOGY PROGRAM GRANT AWARDED TO THE
                     CORCORAN POLICE DEPARTMENT
              Grant Award           Award           Award            Award
                Number            Start Date       End Date 3       Amount
            2008-CK-WX-0228        12/26/07         12/25/11        $ 607,945
                                                          Total     $607,945
           Source: COPS

      COPS was established by the Violent Crime Control and Law
Enforcement Act of 1994 and it is responsible for advancing the practice of
community policing, which promotes the partnership between communities
and law enforcement agencies to proactively reduce crime and to create and
foster a safer environment. Since Fiscal Year (FY) 1999, COPS, through its
Technology Program, has awarded $1.53 billion to state and local law
enforcement agencies to support the development of technologies that assist
investigations and prevent crime.

       The City of Corcoran, California is located in Kings County in
California’s Central Valley and is approximately 50 miles south of Fresno,
California. According to the U.S. Census Bureau, the city had an estimated
population of 24,863, which included approximately 12,000 inmates
incarcerated in the California State Prison at Corcoran and at the California
Substance Abuse Treatment Facility and State Prison, Corcoran. Corcoran
covers an area that is approximately 6.4 square miles and neighbors the
cities of Hanford and Lemoore. The predominant industry in Corcoran and
its surrounding area is farming.

Audit Approach

      The objectives of this audit were to: (1) assess whether COPS
appropriately funded Corcoran’s Technology Program grant application in
accordance with the 2008 Consolidated Appropriations Act and COPS’
Technology Program requirements; and (2) determine whether Corcoran’s
cost reimbursements claimed under the grant were allowable, reasonable,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the grant. The latter included a review of Corcoran’s
internal control environment; cash management; grant expenditures;

      3
          The Award End Date includes all time extensions that were approved by COPS.


                                          -2-
property management; Financial Status Reports (FSR) and Progress
Reports; compliance with additional grant requirements; and program
performance and accomplishments. Our audit objectives, scope, and
methodology are discussed in detail in Appendix I.

      In order to assess whether COPS properly awarded its Technology
Program grant to Corcoran, we reviewed: (1) the 2008 Consolidated
Appropriations Act, including the conference report; (2) Corcoran’s grant
application; and (3) COPS’ approval of Corcoran’s grant application.

      To test Corcoran’s compliance with the conditions of the grant award,
we used criteria contained in the award documents, Code of Federal
Regulations, and Office of Management and Budget (OMB) Circulars.
Specifically, we tested the:

     •   Internal control environment – to determine whether the
         internal controls in place for processing and payment of funds were
         adequate to safeguard grant funds awarded to Corcoran and ensure
         compliance with the terms and conditions of the grant;

     •   Drawdowns – to determine whether the drawdowns were
         adequately supported and if Corcoran was managing receipts in
         accordance with federal requirements;

     •   Expenditures – to determine whether costs charged to the grant,
         including payroll, fringe benefits, and indirect costs (if applicable),
         were accurate, adequately supported, allowable, reasonable, and
         allocable. In addition, we tested expenditures related to the
         purchase of accountable property and equipment to determine
         whether Corcoran recorded accountable property and equipment in
         its inventory records, identified it as federally funded, and utilized
         the accountable property and equipment consistent with the grant;

     •   Reporting – to determine if the required financial and
         programmatic reports were submitted on time and accurately
         reflected grant activity;

     •   Compliance with additional grant requirements – to determine
         whether Corcoran complied with award guidelines, grant conditions,
         and solicitation criteria; and

     •   Program performance and accomplishments – to determine
         whether Corcoran made a reasonable effort to accomplish stated
         objectives.


                                      -3-
       The results of our audit are discussed in detail in the Findings and
Recommendations section of the report. We make 1 recommendation to
COPS for it to improve its grant application approval process and
12 additional recommendations for COPS to ensure that Corcoran strengthen
its internal controls and other program areas to fulfill the terms and
conditions of the grant. We discussed the results of our audit with officials
from COPS and Corcoran, and have included their comments in the report,
as applicable. Further, we requested from COPS and Corcoran written
responses to our draft report, which we received along with comments from
Corcoran’s sub-recipients (Lemoore, KCSO, and Hanford) and are included in
Appendices IV and V. Our audit objective, scope, and methodology are
discussed in Appendix I. Appendix II contains a schedule of dollar-related
findings. Appendix III contains a schedule of all grant-related expenditures
made by the cities of Corcoran, Hanford, Lemoore, and the KCSO as of
February 28, 2011.




                                    -4-
                       FINDINGS AND RECOMMENDATIONS

      I.       COPS’ Approval of Corcoran’s Technology Program
               Grant Application

               We found that COPS improperly awarded a
               Technology Program grant to Corcoran for the
               purpose of funding the personnel costs of four police
               officers. According to the 2008 Consolidated
               Appropriations Act conference report, Corcoran was
               designated to receive $611,000 to fund equipment
               for a local narcotics task force. COPS approved
               $607,945 in funding to Corcoran for the purpose of
               providing four police officers to the task force instead
               of equipment. 4 This purpose was contrary to the Act
               as well as COPS’ Technology Program requirements,
               which funded Corcoran’s application.

       The COPS Technology Program grant awarded to Corcoran was funded
by a congressional earmark in the 2008 Consolidated Appropriations Act.
The Act stipulated that COPS Technology Program funds should be used for
“law enforcement technologies and interoperable communications program,
and related law enforcement and public safety equipment.” 5 In addition, the
conference report for this funding designated $611,000 for “Corcoran,
California, Narcotics and Gang Task Force Equipment.” On June 25, 2008,
Corcoran submitted a Technology Program grant application to COPS to fund
the personnel costs of four police officers that were to be re-assigned from
local law enforcement agencies to a local narcotics task force (Kings County
Narcotics Task Force). COPS approved Corcoran’s grant application for this
non-technological purpose.

       The grant’s purpose as stated in Corcoran’s grant application and
approved by COPS was contrary to the 2008 Consolidated Appropriations Act
as well as COPS’ own regulations. We discussed our concerns with a COPS
official who stated that its Earmark Working Group believed that Corcoran’s
proposed use of the earmarked funds was appropriate. As a result, COPS
approved Corcoran’s grant application. We disagree with COPS’ assessment
and approval of the grant. The 2008 Consolidated Appropriations Act
allocated approximately $205 million for “law enforcement technologies and
interoperable communications program, and related law enforcement and

      4
         A Congressional rescission on all COPS earmarks reduced the appropriated amount
to $607,945.
      5
           Pub. L. No. 110-161 (2008).


                                          -5-
public safety equipment.” We confirmed with COPS that Corcoran’s grant
derived from the funds appropriated in the 2008 Consolidated Appropriation
Act for technology and interoperable communication systems. Therefore,
COPS’ approval of Corcoran’s planned use of grant funds for a non-
technological purpose – assigning police officers to a local narcotics task
force – was not in accordance with the funding legislation.

       Corcoran was not the only organization to receive earmarked funds for
equipment or interoperable communication systems. According to COPS,
there were 1,669 recipients of earmarked Technology Program funding in
FYs 2008, 2009, and 2010. We reviewed these earmarked grants that had
more than 40 percent of their total budgeted grant funding allocated to
personnel costs -- a total of 35 grants that were distributed between FYs
2008, 2009, and 2010. We analyzed these COPS Technology grant
applications to determine if COPS misapplied earmarked funds in a similar
manner as with Corcoran. Of the 35 applications, we found only 1 instance,
besides the Corcoran grant, where COPS had approved the use of earmarked
technology funds to pay for the salaries and fringe benefits of a sworn police
officer. However, unlike Corcoran’s use of the earmarked funds, the
program officer for this other grant was creating a database to track cold
cases. We concluded that COPS could reasonably consider this to be a
technological use of grant funds and therefore, we did not take exception to
this award.

       COPS’ approval of Corcoran’s grant application also violated its own
Technology Program requirements, specifically its Technology Program
Application Guide. The Technology Program Application Guide stated that
grant applications to fund sworn police officer positions will not be funded.
Corcoran’s plan, in submitting its grant application, was to fund sworn police
officers (police officers) who would conduct undercover narcotics
investigations as part of a local narcotics task force. There was no
technological role that these police officers were to fulfill.

      Specifically, the Application Guide stated:

            COPS Technology grants provide funding for the
            continued development of technologies and
            automated systems to assist state, local, and tribal
            law enforcement agencies in investigating,
            responding to, and preventing crime. This funding
            will allow recipients the opportunity to establish and
            enhance a variety of technical equipment and/or
            programs to encourage the continuation and
            enhancement of community policing efforts within


                                     -6-
               their jurisdictions. The COPS Office developed this
               grant program to place departments at the forefront
               of innovative technological developments. . . .
               [Salaries and benefits for sworn police officers] are
               generally unallowable, and may only be funded
               under extremely limited and extenuating
               circumstances and at the discretion of the COPS
               Office. . . . Unallowable Costs: requests will NOT be
               funded [for the] salaries and [fringe] benefits of
               sworn police officers.

       Further, the Application Guide stated:

               Each grant application must explain how the
               proposed project would fit into an overall effort to
               improve public safety through the use of technology.
               All items under this [technology] grant must be
               purchased using the legislative intent established by
               the Consolidated Appropriations Act, 2008 (Pub. L.
               110-161). 6

      In reviewing Corcoran’s grant application, we did not find that
Corcoran requested approval to fund police officer salaries based on any
extenuating circumstances. Nor did this application explain how the project
would fit into an overall effort to improve public safety through the use of
technology. Furthermore, we did not find in COPS’ communication with
Corcoran that it was approving the application based on extenuating
circumstances. As Corcoran’s application was to use grant funds for non-
technological purposes, COPS should not have approved this application as it
did not meet the intent of its own Application Guide nor the
2008 Consolidated Appropriations Act.

      Lastly, Corcoran’s Chief of Police told us he did not use the earmarked
funds for equipment or interoperable communications systems because he
did not have a need for $600,000 worth of equipment. He said his more
pressing need was to increase the manpower on the Kings County Narcotics
Task Force. 7



       6
           COPS Fiscal Year 2008 Application Guide: Technology Program.
       7
          The Commander of the Kings County Narcotics Task Force, who is an employee of
the California Bureau of Narcotics Enforcement, told us that the narcotics task force did not
have enough equipment and much of the equipment that it had was outdated.


                                             -7-
Conclusion

      In its application, Corcoran stated that grant funds would be used to
supplement staffing levels at local law enforcement agencies by backfilling
the vacated positions with entry-level police officers. This intended purpose
was contrary to the Application Guide. While the grantee’s intent was clear
and transparent, it was nonetheless not a proper submission. However,
COPS is at fault for making the award based on Corcoran’s flawed
application.

      Based on our review of the legislation and COPS’ Technology Program
requirements, we believe that COPS should not have approved Corcoran’s
grant application as it was submitted. Corcoran’s request to use earmarked
Technology Program funds to pay for sworn police officer salaries and fringe
benefits was contrary to the 2008 Consolidated Appropriations Act. The Act
stated that related funding is to be used for “law enforcement technologies
and interoperable communications program, and related law enforcement
and public safety equipment.” In addition, by approving Corcoran’s
application to use Technology Program funds for sworn officers, COPS
violated its own Technology Program regulations prohibiting this type of use.
In order to prevent future instances of improper allocation of appropriated
funds, we provide COPS with one recommendation stated below.

Recommendation

      We recommend that COPS:

      1.   Establish a process to ensure that it only approves grant
           applications that comply with related funding legislation.




                                     -8-
       II.    Corcoran’s Administration of the COPS Grant

              We also audited Corcoran’s administration of the
              grant and found material non-compliance with the
              grant requirements. Our findings included internal
              controls weaknesses, poor cash management
              practices, indicators of violations of COPS’ non-
              supplanting requirement by not backfilling locally
              funded police officer positions, inadequate support
              for expenditures, unallowable expenditures,
              inaccurate financial reports, and failure to properly
              adhere to a grant condition related to employment
              eligibility verification. As a result, we questioned
              $321,829 of the $607,945 grant amount. 8

Internal Control Environment

       We interviewed Corcoran officials from several operational areas,
including grants management, accounting, city management, and payroll in
order to assess Corcoran’s internal controls. Corcoran’s latest Single Audit
Report, issued February 10, 2011, included an unqualified opinion without
noting any material internal control weaknesses, deficiencies, or findings
that could relate to Grant 2008-CK-WX-0228. 9 Our analysis found that
Corcoran’s financial management system adequately identified grant-related
receipts and expenditures and separately accounted for grant-related
activities. However, we discovered internal control weaknesses related to
Corcoran’s payment approval process and receiving policy, as discussed
below.

Financial Management System

      According to 28 C.F.R. Part 66, Uniform Administrative Requirements
for Grants and Cooperative Agreements to State and Local Governments,
§ 66.20, Standards for financial management systems, requires that
grantees and subgrantees meet the standard of accurate, current, and
complete financial disclosure, and must maintain accounting records which

       8
          The Inspector General Act of 1978, as amended, contains our reporting requirements
for questioned costs. However, not all findings are dollar-related. See Appendix II for a
breakdown of our dollar-related findings and for definitions of questioned costs.
       9
         Single Audit Act of 1984, Pub. L. 98-502, and the Single Audit Act Amendments of
1996, Pub. L. 104-156. It sets forth standards for obtaining consistency and uniformity
among federal agencies for the audit of states, local governments, and non-profit
organizations expending federal awards.


                                           -9-
adequately identify the source and application of funds. In addition, these
standards require that “effective control and accountability must be
maintained for all grant and subgrant cash, real and personal property, and
other assets.”

      In general, we found that Corcoran maintained grant-related financial
records and data, except for the lack of adequate supporting documents
related to grant expenditures, which is discussed later in this report. Based
on our review of grant-related transactions that were recorded in Corcoran’s
accounting system, we found that the system had the capability to
accurately record grant-related receipts and expenditures as required by
28 C.F.R. Part 66.

Payment Approval Process

      Based on our review of Corcoran’s financial policies and procedures
including an evaluation of Corcoran’s accounting records and interviews with
Corcoran’s accounting staff, we identified an internal control weakness
related to its payment approval process. Specifically, for all payments,
including grant-related expenditures, Corcoran’s normal payment approval
process included preparing a Payment Request Form that facilitated the
payment process. Corcoran’s Finance Department personnel stated that the
proper payment approval procedure begins with an individual approving an
invoice for payment through the preparation of a Payment Request Form.
After an invoice is approved for payment, another individual approves the
payment itself. The payment approval process that Corcoran officials
described to us was not formally documented in writing. The lack of a
written payment approval process is an internal control weakness because it
is more difficult for an organization to consistently adhere to an unwritten
process and it may hinder management from consistently ensuring
compliance.

      While testing grant-related expenditures, we found that four out of
nine Payment Request Forms relating to grant expenditures lacked approval
or the forms were prepared and approved for payment by the same person
(Corcoran’s Finance Director). We believe one of the factors that facilitated
the Finance Director’s ability to both prepare the Payment Request Form and
approve payment was that Corcoran lacked written procedures that clearly
defined responsibilities for its finance personnel.

      Corcoran’s Finance Director told us she knew these expenditures were
approved and did not need to undergo the normal payment approval
process. Even though these were legitimate grant expenditures, internal
control weaknesses related to the submission and approval of expenditure


                                    - 10 -
payments may allow funds to be misappropriated. Corcoran should
strengthen its internal controls in accordance with 28 C.F.R. § 66.20 and
establish clearly defined responsibilities for its finance personnel that feature
adequate separation of duties between the preparation of the Payment
Request Form and the approval of payments.

Receiving Policy

      According to 28 C.F.R. § 66.20, “effective control and accountability
must be maintained for all grant and subgrant cash, real and personal
property, and other assets.” According to the Corcoran police officer who
was responsible for receiving goods and updating Corcoran’s unofficial fixed
asset list, Corcoran lacked a written receiving policy for tracking the receipt
of goods shipped to the police department. The Corcoran police officer
stated that either he or Corcoran’s Executive Assistant know what has been
ordered and will know when goods will be received. He further explained
that, as a small agency, the Corcoran Police Department’s process of
receiving and tracking property items is adequate for the department’s
purposes. Notwithstanding general knowledge that an order has been
received, we believe that without a written receiving policy, Corcoran is
vulnerable to incomplete and inoperable orders, as it does not follow any
procedures to verify: the receipt of goods ordered, quantity received, and
working order of all accountable property items and goods ordered.
Therefore, we believe that Corcoran should establish a receiving policy that
ensures that all items that are received are processed uniformly and
adequately to allow for verification that the proper items have been
received, in the correct quantity, and in good working order.

Drawdowns

      On November 6, 2008, 11 months after the grant start date, Corcoran
drew down the entire grant award of $607,945 in two separate drawdowns
in the same day. These drawdowns represented advances because
Corcoran’s grant-related accounting records reflected no expenditures as of
November 6, 2008. The first grant-related expenditure did not occur until
December 10, 2008, approximately a month after the drawdowns. Corcoran
and its sub-recipients (Hanford Police Department, Lemoore Police
Department, and the Kings County Sheriff’s Office) continued to incur grant-
related expenditures after November 6, 2008, which slowly reduced the
advanced amount. However, more than 2 years after Corcoran drew down




                                     - 11 -
the entire grant amount, we noted that $8,422 was still not spent by
Corcoran or its sub-recipients. 10

      According to 28 C.F.R. § 66.20, “procedures for minimizing the time
elapsing between the transfer of funds from the U.S. Treasury and
disbursement by grantees and subgrantees must be followed whenever
advance payment procedures are used.” The regulation goes on to say:

       when advances are made . . . the grantee must make
       drawdowns as close as possible to the time of making
       disbursements. Grantees must monitor cash drawdowns by their
       subgrantees to assure that they conform substantially to the
       same standards of timing and amount as apply to advances to
       the grantees.

      Corcoran and its sub-recipients did not adhere to these regulations.
Corcoran’s drawdown of the entire grant award, years and months before
disbursements were made, meant that it did not demonstrate a willingness
or ability to ensure that it minimized the time elapsed between the advance
and the disbursements that were made.

      When asked why the entire grant amount was drawn down at once
before disbursements were incurred, Corcoran’s Chief of Police stated that
Corcoran considered it easier to administer the grant if it drew down the
entire grant award at once rather than drawing down grant funds on a
reimbursement basis. He said drawing down funds on a reimbursement
basis would be too difficult to calculate the correct amount to drawdown.
We recommend that COPS ensure that Corcoran establish procedures to
time drawdowns as close as possible to the incurrence of expenditures.

Expenditures

      We reviewed Corcoran’s grant-related general ledger and noted that
Corcoran did not record in its grant accounting records expenditures related
to two of its three sub-recipients, the Hanford Police Department (Hanford)
and the Lemoore Police Department (Lemoore); it only included
expenditures incurred by Corcoran and the KCSO. In order to perform our
transaction testing, we separately obtained from Hanford and Lemoore their
grant-related expenditures. When we conducted our fieldwork as of
December 31, 2010, grant expenditures according to Corcoran’s general


       10
          Appendix III contains a chronological listing of grant expenditures incurred by
Corcoran and its sub-recipients, as well as a cumulative total of funds that remain
unexpended more than 2 years after the entire grant award was drawn down.


                                            - 12 -
ledger as well as Hanford’s and Lemoore’s individual expenditures, totaled
$585,678. From this total, we selected for testing all of the personnel costs
(salaries and fringe benefits) that were incurred, totaling $579,214.
The remaining expenditure amount related to the purchase of ammunition
and accountable property.

      We tested the grant expenditures that we selected to determine if the
transactions were supported, allowable, and reasonable. In addition, we
reviewed staffing levels in order to determine if Corcoran and its sub-
recipients adhered to the non-supplanting requirement for the grant.
Overall, we found significant deficiencies including indicators of supplanting
of local funds, inadequate supporting documentation, unallowable
expenditures, and improper treatment of accountable property. Below, we
discuss in detail the results of our testing.

Non-Supplanting Requirement

       The Violent Crime Control and Law Enforcement Act of 1994, which
established COPS, states that federal awards are not to supplant but rather
supplement local funds. Upon accepting the grant award, Corcoran and its
sub-recipients agreed to abide by the grant condition, which requires that
grantees not use grant funds to supplant local funding. To avoid supplanting
local funds with federal dollars, COPS requires that “COPS officer and civilian
positions must be in addition to any locally-funded positions.” Consistent
with COPS’ non-supplanting rule, Corcoran agreed in its grant application
that it, Hanford, Lemoore, and the KCSO would backfill the four police officer
positions that were re-assigned to the Kings County Narcotics Task Force by
hiring four new sworn police officers.

       We discussed the issue of backfilling the re-assigned positions with
officials from Corcoran, Hanford, Lemoore, and the KCSO. In addition, we
reviewed and analyzed each agency’s personnel rosters, including
termination dates, hiring dates, and vacancy advertisements in order to
determine if each agency complied with COPS’ non-supplanting requirement.
We factored 5 percent into our analysis of personnel target levels to
accommodate normal and routine personnel turnover.

      Corcoran Police Department

       In June 2009, Corcoran began charging the grant for its one police
officer that it had detailed to the Kings County Narcotics Task Force.
Corcoran officials stated that they had backfilled the re-assigned position.
However, we found the position was backfilled with an existing entry-level
sworn police officer. Corcoran’s action did not qualify as backfilling the


                                    - 13 -
grant-funded position. Additionally, in September 2010, the entry-level
police officer resigned leaving the position vacant. In October 2010,
Corcoran had expended 100 percent of their portion of the grant.

      We determined that Corcoran’s baseline headcount in June 2009, prior
to grant-related payroll transactions, was 21 police officers. In order to
verify whether Corcoran had added another police officer to the baseline, we
analyzed Corcoran’s police officer headcount between June 2009 and
October 2010. In our calculation of Corcoran’s headcount, as well as for its
sub-recipients, we factored in a 5 percent allowance for normal personnel
turnover. As shown in Exhibit 2, Corcoran’s headcount did not increase by
one position in June 2009.

                                           EXHIBIT 2
                          MONTHLY SWORN POLICE OFFICER HEADCOUNT FOR
                                CORCORAN POLICE DEPARTMENT 11
                                   JUNE 2009 TO OCTOBER 2010
                                 Target Officer Level vs. Actual Officer Level

                     23

                     22
Number of Officers




                     21

                     20

                     19

                     18

                     17




                                               Period of Time
                               Target Officer Level       Actual Officer Level

 Source: OIG analysis of data from Corcoran




                     11
           Unpaid reservists are excluded from Corcoran’s headcount. The Target Officer
Level and Actual Officer Level were calculated as of the end of each month. The OIG has
factored in 5 percent for normal and routine personnel turnover, which means that the Target
Officer Level represents a range consisting of 95 percent to 100 percent of the target.


                                                 - 14 -
       The data in Exhibit 2 shows that the only time Corcoran’s headcount
increased was between November and December 2009. This is the only
period of time during the grant that Corcoran had truly backfilled the position
by adding another police officer to their police force. The rest of the time,
Corcoran’s police officer headcount was either below the full staffing target
level or below 95 percent of that target level. Corcoran should have increased
its baseline of police officers by one position throughout the life of the grant.
We view Corcoran’s failure to backfill positions as an indicator of supplanting.

      Corcoran’s Police Chief told us that he viewed the COPS’ Technology
Program grant as a money saving mechanism for the police department
during the period covered by the grant. He further stated that Corcoran
intends to retain the grant-funded position after the grant expires and
absorb the salary and fringe benefits into its local budget.

      Based on indicators that Corcoran supplanted local resources, we
questioned $41,328 for the period of May 2010 to October 2010. The
questioned amount was calculated based on the salary and fringe benefits of
Corcoran’s grant-funded position for the 6 months that it fell below
95 percent of the upper bound of the target line.

      For Hanford, Lemoore, and the KCSO, we likewise reviewed each of
these agency’s efforts to backfill the positions that were re-assigned to the
Kings County Narcotics Task Force. As the official grantee for the COPS grant,
we first asked Corcoran whether it knew if Hanford, Lemoore, and the KCSO
backfilled their three positions and supplemented each agency’s police officer
headcount with at least one additional police officer. Corcoran officials told us
they did not know if its sub-recipients backfilled the positions. As the official
grantee, Corcoran is ultimately responsible for ensuring that Hanford,
Lemoore, and the KCSO adhere to grant rules and requirements, such as
backfilling the positions and adhering to the non-supplanting requirement.
Given that Corcoran and its officials were not aware of whether Hanford,
Lemoore, and the KCSO backfilled their positions or supplanted local
resources with COPS’ grant funding, we find this to be of significant concern.

       We asked officials from Hanford, Lemoore, and the KCSO to provide us
with information as to whether each agency backfilled the police officer
position it re-assigned to the task force. In response, officials from both
Hanford and the KCSO stated that they were unsure if their agencies
backfilled the positions re-assigned to the task force. A Lemoore official
stated that Lemoore backfilled the position with an entry level officer in
February 2009, 13 months after the grant start date.




                                    - 15 -
       We then reviewed the police officer head counts of each of Corcoran’s
sub-recipients in order to confirm whether each agency backfilled the
positions re-assigned to the task force.

      Lemoore Police Department

       We found that Lemoore hired its backfill in mid-February 2009 and
started billing the grant for its police officer detailed to the Kings County
Narcotics Task Force in July 2009. We determined that Lemoore’s baseline
in early February 2009, prior to grant-related payroll transactions, was 31
police officers. To verify whether Lemoore had added another police officer
to the baseline police force, we analyzed Lemoore’s police officer headcount
between February 2009 and December 2010. As shown in Exhibit 3,
Lemoore’s police officer headcount increased by one position in February
2009 and Lemoore maintained this increase for 10 months. After November
2009, Lemoore’s police officer headcount decreased from 32 positions to a
low of 27 in October 2010. During this time, Lemoore reduced the size of its
budgeted police force in July 2010 from 32 to 29 total budgeted police officer
positions. We took this budget reduction into account in our analysis.




                                    - 16 -
                                           EXHIBIT 3
                          MONTHLY SWORN POLICE OFFICER HEADCOUNT FOR
                                 LEMOORE POLICE DEPARTMENT 12
                                FEBRUARY 2009 TO DECEMBER 2010

                                 Target Officer Level vs. Actual Officer Level
                     34
                     33
Number of Officers




                     32
                     31
                     30
                     29
                     28
                     27
                     26




                                                   Period of Time
                                    Target Officer Level       Actual Officer Level

Source: OIG analysis of data from Lemoore

      The data shows that Lemoore’s police officer headcount was not
within the target level of officers between April and June 2010, between
August and October 2010, and in December 2010. Lemoore should have
increased its baseline of police officers by one position throughout the life
of the grant, beginning in February 2009. We view Lemoore’s failure to
backfill the grant funded position as an indicator of supplanting. Therefore,
we questioned $52,172 of the COPS grant that was attributable to the
Lemoore police officer’s salary and fringe benefits for the period of time
that Lemoore’s headcount fell below 95 percent of the upper bound of the
target line.

                     Kings County Sheriff’s Office

     For the KCSO, we found that it started billing the grant for the
deputy that it detailed to the Kings County Narcotics Task Force in

                     12
         The Target Officer Level and Actual Officer Level were calculated as of the end of
each month. The OIG has factored in 5 percent for normal and routine personnel turnover,
which means that the Target Officer Level represents a range consisting of 95 percent to
100 percent of the target.


                                                     - 17 -
January 2009. We determined that the KCSO’s baseline in January 2009,
prior to grant-related payroll transactions, was 88 deputies. To verify
whether the KCSO had added another deputy to the baseline police force,
we analyzed the KCSO’s actual deputy headcount between January 2009
and December 2010. We factored into our analysis reductions in
budgeted deputy positions, including the reduction of 3 deputy positions
in July 2009 and the loss of a contract with the City of Avenal, California
in July 2010 which reduced the KCSO’s budgeted positions by
11 deputies. As shown in Exhibit 4, the KCSO’s headcount did not
increase by one position in January 2009 and only increased from its
baseline between April 2009 and July 2009.




                                    - 18 -
                                        EXHIBIT 4
                           MONTHLY SWORN DEPUTY HEADCOUNT FOR
                              KINGS COUNTY SHERIFF’S OFFICE 13
                              JANUARY 2009 TO DECEMBER 2010

                           Target Deputy Level vs. Actual Deputy Level

                      90
                      89
                      88
 Number of Deputies




                      87
                      86
                      85
                      84
                      83
                      82
                      81
                      80
                      79
                      78
                      77
                      76
                      75
                      74
                      73
                      72
                      71
                      70




                                         Period of Time

                            Target Deputy Level       Actual Deputy Level

Source: OIG analysis of data from Kings County Sheriff’s Office

      The KCSO was within or above the target range, which incorporates a
5 percent rate for turnover, for the period of our review. However, between
January 2009 and March 2009, in May and June 2009, and between
November 2009 and June 2010 the KCSO’s headcount was one deputy less
than what it should have had on board after receiving its COPS-funded
deputy position. This concerns us. However, because we found the KCSO to
be within our target range for the period of our review, we did not question
costs for the KCSO.




                      13
         The Target Deputy Level and Actual Deputy Level were calculated as of the end of
each month. The OIG has factored in 5 percent for normal and routine personnel turnover,
which means that the Target Deputy Level represents a range consisting of 95 percent to
100 percent of the target.


                                             - 19 -
                     Hanford Police Department

       We found that Hanford started billing the grant for its police officer
detailed to the Kings County Narcotics Task Force in April 2009.
We determined that Hanford’s baseline in April 2009, prior to grant-related
payroll transactions, was 53 police officers. Additionally, Hanford had
expended 100 percent of its portion of grant funds by September 2010. To
verify whether Hanford had backfilled the position transferred to the task
force, we analyzed Hanford’s police officer headcount between April 2009
and September 2010. As shown in Exhibit 5, Hanford’s headcount did not
increase by one position in April or May 2009, but did increase by one police
officer briefly between June 2009 and September 2009.

                                           EXHIBIT 5
                          MONTHLY SWORN POLICE OFFICER HEADCOUNT FOR
                                 HANFORD POLICE DEPARTMENT 14
                                 APRIL 2009 TO SEPTEMBER 2010

                                  Target Officer Level vs. Actual Officer Level

                     56

                     55
Number of Officers




                     54

                     53

                     52

                     51

                     50




                                                 Period of Time
                                Target Officer Level       Actual Officer Level

Source: OIG analysis of data from Hanford

                     14
         The Target Officer Level and Actual Officer Level were calculated as of the end of
each month. The OIG has factored in 5 percent for normal and routine personnel turnover,
which means that the Target Officer Level represents a range consisting of 95 percent to
100 percent of the target.


                                                  - 20 -
      Although Hanford was within our target for the period of our review,
we note that between October 2009 and September 2010, Hanford’s
headcount was one police officer less than what it had on board prior to
receiving its COPS-funded police officer position. This concerns us.
However, because we found Hanford to be within our target range for the
period of our review, we did not question costs for Hanford.

       In total, we questioned $41,328 in grant charges for Corcoran and
$52,172 for Lemoore because we found significant indications that these
entities did not adhere to COPS’ non-supplanting requirement.

Unsupported Personnel Expenditures

       On November 12, 2008, Corcoran advanced to Lemoore and Hanford
each $151,986 in grant funds to fund the personnel costs of the police
officers re-assigned to the Kings County Narcotic Task Force. We requested
of Corcoran documentation to support this $303,973 disbursement in grant
funds to Lemoore and Hanford. Corcoran responded by providing us with
summaries of the sub-recipients’ grant-related expenditures, which Corcoran
solicited from the sub-recipients based on our request. From November
2008 to July 2010, Lemoore and Hanford did not provide invoices,
timesheets, or other means of supporting documentation to Corcoran as
support for the grant-related expenditures that each agency incurred.

      We learned from a Corcoran official that Corcoran did not require
Lemoore or Hanford to provide invoices, timesheets, or any form of support
for their grant expenditures. Rather, Corcoran requested that Lemoore and
Hanford provide a status of their grant funds only upon our request for
documentation. When we asked why Corcoran lacked adequate support for
the grant funds that it provided to Lemoore and Hanford, Corcoran officials
told us that they trusted these police agencies and therefore did not require
support for their expenditures.

       According to 28 C.F.R. § 66.20, “. . . grantees and subgrantees must
maintain records which adequately identify the source and application of
[grant] funds provided for financially-assisted activities.” Additionally,
28 C.F.R. § 66.20 states that “. . . accounting records must be supported by
such source documentation as cancelled checks, paid bills, payrolls, time and
attendance records, contract and subgrant award documents, etc.”
Furthermore, 2 C.F.R. Part 225, Cost Principles for State, Local, and Indian
Tribal Governments (formerly known as OMB Circular A-87) states:

      . . . where employees are expected to work solely on a single
      Federal award or cost objective, charges for their salaries and


                                    - 21 -
      wages will be supported by periodic certifications that the
      employees worked solely on that program for the period covered
      by the certification. These certifications will be prepared at least
      semi-annually and will be signed by the employee or supervisory
      official having first-hand knowledge of the work performed by
      the employee.

      In our discussions with the police officers that Lemoore and Hanford
assigned to the Kings County Narcotics Task Force, we learned that they
sometimes performed non-task force related activity. Any activity that was
non-task force related would also not be a grant-related activity. Therefore,
we requested and received a sample of Lemoore’s and Hanford’s timesheets
for two non-consecutive payroll periods directly from Lemoore and Hanford
to verify task force-related activity. Based on our review, we found that
these timesheets lacked information related to whether the grant-funded
police officers devoted all of their regular time to the Kings County Narcotics
Task Force or not. These timesheets did not have the required information
described in 2 C.F.R. Part 225.

       Because the grant expenditures made by Lemoore and Hanford were
not supported with invoices to Corcoran or timesheets detailing regular duty
activity and we were told by the police officers that they do not spend
100 percent of their time on task-force related activities, we were not able to
obtain adequate evidence to support the amount of regular time that the
police officers spent on task force-related activity. Therefore, we questioned
$211,782 in personnel costs expended by Lemoore ($87,419) and Hanford
($124,363) for its two police officers that were re-assigned to the Kings
County Narcotics Task Force. Of the $87,419 in questioned costs related to
Lemoore’s lack of adequate support, $24,875 was previously questioned in
our finding related to Lemoore’s failure to adequately backfill its grant-
funded police officer. In order to avoid questioning the same dollars twice,
we adjusted the questioned costs associated with the lack of adequate
support to total $186,907.

      On November 12, 2009, Corcoran also provided to the KCSO a lump
sum advance of $151,986. Five months later, the KCSO returned all of
these grant funds to Corcoran and stated that it preferred to invoice
Corcoran for expenses incurred and seek reimbursement from Corcoran
rather than receive a lump sum advance. We reviewed all six of the KCSO’s
invoices that it billed to Corcoran and found the invoices to be inadequately
supported. Corcoran’s Accounting Technician stated that Corcoran did not
require the KCSO to provide timesheets in support of the KCSO’s invoices.
We believe that the KCSO’s invoices should have included timesheets as



                                     - 22 -
support for the time that the KCSO’s deputy worked on the narcotics task
force in accordance with the requirement stated in 28 C.F.R. § 66.20.

      We separately requested and received from the KCSO a sample of
timesheets for two non-consecutive payroll periods. We reviewed the
timesheets and found they lacked information regarding how much time the
KCSO’s grant-funded deputy devoted to the Kings County Narcotics Task
Force. Therefore, these timesheets did not have the required information as
stipulated in 2 C.F.R. Part 225.

       We asked KCSO officials if periodic certifications were maintained in
accordance with 2 C.F.R. Part 225 to support the grant-related policing
activities of the deputy assigned to the Kings County Narcotics Task Force.
The KCSO provided time studies, which its deputy prepared for every pay
period, that identified the amount of time that the deputy devoted to
working on the Kings County Narcotics Task Force and the amount of time
worked on other policing activities. Our analysis of these time studies found
that the deputy did not work 100 percent of his time on the task force.
Rather, we found that the deputy worked 100 hours on non-task force
related activities or the equivalent of $3,470. If Corcoran had requested
support for the KCSO invoices, then we believe that it would not have
inadvertently overcharged the grant for non-grant-related activities.
Therefore, we questioned $3,470 that was inappropriately charged to the
grant for the KCSO deputy’s non-task force related work.

     In addition, we found 13 of the time studies were improperly prepared
because the time studies lacked either the employee’s signature and the
approval of the deputy’s supervisor as required by 2 C.F.R. Part 225.
Therefore, we questioned $36,752 related to the KCSO’s invoices for lack of
adequate support for the KCSO deputy’s activities on the Kings County
Narcotics Task Force. As a result of the improper charge and the lack of
adequate support, we questioned $40,222 ($3,470 + $36,752) of the
$114,808 that the KCSO billed to Corcoran. 15

      In total, we questioned $248,534 for non-grant-related expenditures
or expenditures lacking adequate support related to all three of Corcoran’s
sub-recipients.

Unsupported Canine Expenditures

      According to 28 C.F.R. § 66.20, expenditures that are charged to a
grant must be related to the grant’s purposes and be in accordance with the

     15
          Grant expenditure total for the KCSO was as of June 2010.


                                          - 23 -
terms of the grant. Based on our review of Corcoran’s payroll documents,
including timecards related to Corcoran’s police officer that was re-assigned
to the Kings County Narcotics Task Force, we identified unsupported
expenses that were charged to the grant. Specifically, Corcoran’s police
officer was paid a total of $1,586 in stipends over six pay periods between
July 1, 2009, and September 13, 2009, for the care and upkeep of the
department’s canine. Corcoran officials told us the stipend was charged to
the grant because Corcoran officials forgot to remove this stipend when
charging its police officer’s salary to the grant. However, Corcoran officials
also stated that the canine was available for the Kings County Narcotics Task
Force members and had been used by them occasionally in the past. We
requested and received documentation from Corcoran that indicated that the
canine had been used once in July 2009 and once in September 2009 for
task force searches. Based on that documentation, we did not question
$386 for the care and upkeep of the canine for the two pay periods in which
it was used. However, for the remaining amount of the stipend that was
charged to the grant, there was no supporting documentation to indicate
that the canine was used primarily for grant-related purposes. Therefore,
we questioned $1,200 of the $1,586 stipend as unsupported. If future
canine expenditures are charged to Department of Justice grants, Corcoran
should develop a mechanism by which to determine and allocate grant-
related and non-grant related expenses.

Accountable Property

       Our review of Corcoran’s policies and procedures found that Corcoran
lacked a written fixed asset policy. Corcoran’s Finance Director stated that
the city and its internal auditors informally agreed that the city would
capitalize assets above $2,000. According to 28 C.F.R. Part 66, property
records that include a description of the property and its location and cost
must be maintained. In addition, grantees that purchase property items
with grant funds are also required to maintain property records that identify
whether the property was purchased with federal or other types of funding.

       We reviewed Corcoran’s grant-related purchases and identified one
property item, a police radio purchased for $2,273 that met Corcoran’s
informal capitalization threshold, as mentioned above. We physically
verified the existence of this radio and found that it was being used for
grant-related purposes. However, the police radio was not recorded in
Corcoran’s official property records. Instead, we found the same radio
recorded on Corcoran’s unofficial inventory list, except, it was not identified
as having been purchased with federal funds.




                                     - 24 -
      We believe that since the radio was not capitalized nor recorded in
Corcoran’s official property records, it was susceptible to misappropriation
because it would not be accounted for during the city’s annual inventory.
We recommend that COPS ensure Corcoran establishes a formal fixed asset
policy that includes recording grant-funded property purchases in its official
property records and identifying whether the property was purchased with
federal funds.

Reporting Requirements

       We reviewed the FSRs and annual Progress Reports that Corcoran
submitted to COPS in accordance with 28 C.F.R. § 66.40 and
28 C.F.R. § 66.41 to determine whether these reports were submitted on
time and were accurate. Overall, we found that the financial reports that
Corcoran submitted were not submitted in a timely manner and were not
accurate. However, we found that Corcoran submitted its Progress Reports
in a timely manner.

Financial Status Reports

      According to 28 C.F.R. § 66.41, grantees are required to submit FSRs
periodically and “the federal agency may prescribe the frequency of the
report for each project or program.” COPS requires grantees to submit FSRs
on a quarterly basis; under 28 C.F.R. § 66.41, “when reports are required on
a quarterly or semiannual basis, they will be due 30 days after the reporting
period.” The final FSR is due 90 days after the grant’s end date. As shown
in Exhibit 6, we reviewed eight FSRs and found that Corcoran failed to
submit six FSRs, submitted one FSR 39 days late, and submitted one FSR on
time.




                                    - 25 -
                                 EXHIBIT 6
                     FINANCIAL STATUS REPORT HISTORY
                          GRANT 2008-CK-WX-0228
  Report                                  Report            Date              Days
   No.          Reporting Period         Due Date         Submitted           Late
    1         07/01/08 to 09/30/08        10/30/08       Not Submitted         NA
    2         10/01/08 to 12/31/08        01/30/09       Not Submitted         NA
    3         01/01/09 to 03/31/09        04/30/09         06/08/09            39
    4         04/01/09 to 06/30/09        07/30/09         07/17/09             0
    5         07/01/09 to 09/30/09        10/30/09       Not Submitted         NA
    6         10/01/09 to 12/31/09        01/30/10       Not Submitted         NA
    7         01/01/10 to 03/31/10        04/30/10       Not Submitted         NA
     8       04/01/10 to 06/30/10         07/30/10       Not Submitted         NA
Source: OIG analysis of FSRs

      As shown above, Corcoran failed to submit quarterly FSRs as required.
We also found that on June 30, 2009, Corcoran incorrectly reported that all
of the grant funds were expended. According to Corcoran’s Executive
Assistant, FSRs were not filed due to a misunderstanding about the reporting
requirements. As discussed below, Corcoran did not use all of the grant
funds as of June 30, 2009, and should not have stopped submitting its FSRs
to COPS.

       28 C.F.R. § 66.20 states that grantees are required to disclose
accurate, current, and complete financial results for financially assisted
activities. We reviewed the two FSRs that Corcoran submitted to COPS in
order to determine whether they were accurate and complete. We
compared the FSRs to Corcoran’s grant accounting records and our
calculation of expenditures made by Lemoore and Hanford for grant-related
activities that should have been recorded in Corcoran’s accounting records
and we found the FSRs to be significantly inaccurate (see Exhibit 7).

                              EXHIBIT 7
           ACCURACY OF CORCORAN’S FINANCIAL STATUS REPORTS
                        GRANT 2008-CK-WX-0228
                                      Cumulative                        Difference
                                     Expenditures     Cumulative       Between FSRs
 Report                              Reported on     Grant-Related    and Accounting
  No.        Reporting Period            FSR         Expenditures         Records
    3       01/01/09 – 03/31/09        $303,972         $18,517          $(285,455)
    4      04/01/09 – 06/30/09        $607,945         $85,119           $(522,826)
Source: OIG analysis of COPS data and Corcoran’s accounting records




                                         - 26 -
      Even though Corcoran’s accounting records reflected total
expenditures of $18,517 for the quarter ending March 31, 2009, Corcoran’s
FSR included expenditures totaling $303,972. On its second FSR for the
period ending June 30, 2009, Corcoran showed that all of the grant funds
had been expended. However, Corcoran’s official accounting records and
sub-recipient expenditures totally $85,119 in expenditures for that same
period.

      Corcoran’s Finance Director stated that Corcoran’s FSRs included the
expenditures that were recorded in its financial management system. We
found that this was not the case. The Finance Director also told us that
Corcoran’s first FSR included the total amount it advanced to both Lemoore
and Hanford. In addition, the Finance Director stated that a COPS official
instructed Corcoran to report all of the grant funds had been expended in
the second FSR. We asked COPS officials about this statement and they
stated that COPS did not provide such an instruction to Corcoran.

      In addition to including Corcoran’s grant expenditures on its FSRs,
Corcoran should have also included only actual grant-related expenditures
incurred by Hanford, Lemoore, and the KCSO. We recommend that COPS
ensure that Corcoran establish processes for submitting all required FSRs
and ensuring they are accurate and complete.

Progress Reports

      We reviewed the annual Progress Reports that Corcoran submitted to
COPS to determine if the reports were submitted on time and were accurate.
According to 28 C.F.R. § 66.40, program performance must be monitored
and reported annually. These reports are due 90 days after the reporting
period. Specifically, we reviewed the two Progress Reports that Corcoran
submitted to COPS and found that both reports were submitted on time (see
Exhibit 8).

                               EXHIBIT 8
                        PROGRESS REPORT HISTORY
                         GRANT 2008-CK-WX-0228
       Report                              Report       Date      Days
        No.        Reporting Period       Due Date    Submitted   Late
         1      01/01/08 to 12/31/08       03/31/09   01/27/09     0
         2      01/01/09 to 12/31/09       03/31/10   02/02/10     0
     Source: OIG data analysis of COPS data

      In addition, we reviewed the information that Corcoran included in its
Progress Reports and found that Corcoran had difficulty in reporting program


                                       - 27 -
information related to the re-assignment of police officers to the local
narcotics task force because its Progress Reports were designed to capture
Technology Program grant information rather than hiring information. As a
result, it was especially difficult for Corcoran to report on its efforts to
backfill the grant-funded position.

Compliance with Additional Grant Requirements

       We reviewed Corcoran’s grant award documentation to identify any
additional special requirements that COPS placed upon Corcoran as a
condition of the grant award. We found that Corcoran did not comply with a
grant condition related to maintaining employment eligibility documents.
One of the grant conditions required that Corcoran maintain the Department
of Homeland Security, U.S. Citizenship and Immigration Services’ Form I-9,
Employment Eligibility Verification (Form I-9) for its grant-funded
positions. 16 According to the Form I-9 instructions, “employers must retain
completed Forms I-9 for three years after the date of hire or one year after
the date employment ends, whichever is later.” We found that Corcoran did
not maintain the Forms I-9 for its police officer that it re-assigned to the
Kings County Narcotics Task Force and for the entry-level police officer that
it hired to backfill the re-assigned police officer’s position. Corcoran’s
Human Resources official stated that she shredded the Forms I-9 after
1 year, believing that was the required time Corcoran had to maintain these
forms. We recommend that COPS ensure that Corcoran establishes a
procedure to maintain the Forms I-9 as required.

Program Performance and Accomplishments

       According to the grant application, the purpose of the grant was to add
law enforcement officers to the Kings County Narcotics Task Force, which is
led by the State of California’s Department of Justice, Bureau of Narcotics
Enforcement. Program performance is measured and communicated
through an annual report compiled by the Kings County Narcotics Task
Force. Drug investigation statistics from these annual reports are shown in
Exhibit 9. The 2008 report noted an overall decrease in arrests and personal
asset seizures, although the market value of narcotics and dangerous drug
seizures increased substantially and personnel hours devoted to the program
increased in comparison to the 2007 report. According to the Kings County
Narcotics Task Force Commander, the decreases are attributable to a wave
of hiring and training of seven new non-grant funded officers. It took time

       16
          The purpose of the Form I-9 is to document that each new employee (both citizen
and noncitizen) hired after November 6, 1986, is authorized to work in the United States. All
employees (both citizen and noncitizen) hired after November 6, 1986, and working in the
United States must complete the Form I-9.


                                           - 28 -
to train these officers to operate undercover. The COPS Technology
Program grant-funded officers who were added to the task force in 2009 also
affected the task force’s statistical measurements. The 2009 report cited an
increase in arrests, more personnel hours devoted to the Kings County
Narcotics Task Force, and more personal assets seized. However, during
2009, the market value of narcotics and dangerous drug seizures decreased.
For 2010, the task force reported a slight decrease in arrests, more
personnel hours devoted to the Kings County Narcotics Task Force, and
substantially more assets seized.

                                 EXHIBIT 9
               STATISTICAL PERFORMANCE MEASUREMENTS FOR THE
                     KINGS COUNTY NARCOTICS TASK FORCE
      Statistical Categories            2007        2008         2009        2010
Drug Arrests                                 95            50         98            97
Number of Officers                              6           9         13            13
Total Personnel Hours                     8,845        8,890      15,794       17,447
Dollar Value of Personal Asset Seizures   $82,557      $25,497      $31,445    $69,340
Market Value of Narcotics and
Dangerous Drug Seizures                  $427,646 $2,053,345 $975,083 $2,252,697
Source: OIG analysis of data provided by the Kings County Narcotics Task Force

       We also found that the Kings County Narcotics Task Force and other
local law enforcement agencies partnered with state and federal agencies in
an operation to dismantle a prominent prison gang, the Nuestra Familia, who
were primarily based in the Kings County area. As of August 2010,
36 arrests were made in connection with the Nuestra Familia case. In
addition to disrupting a large prominent drug ring, the Kings County
Narcotics Task Force investigated and apprehended lower level street
dealers, responded to normal patrol duties, and provided surveillance as
requested by local law enforcement agencies.

       We interviewed Kings County Narcotics Task Force personnel and
made site visits to the task force headquarters in order to verify that the
officers from Corcoran, Hanford, Lemoore, and the KCSO were in fact re-
assigned to the task force and were working towards the task force’s goal of
suppressing the spread of narcotics in Kings County. Based on our
discussions with task force personnel, review of documented
accomplishments, and observations of the re-assigned officers working at
the task force headquarters, we believe that Corcoran fulfilled its goal for the
grant in re-assigning officers to the narcotics task force.




                                       - 29 -
Conclusion

       Our audit found significant deficiencies in Corcoran’s administration of
the COPS Technology Program grant. We identified internal control
weaknesses, including the lack of clearly defined responsibilities among
Corcoran’s finance staff regarding the payment approval process and
inadequate separation of duties. Corcoran also lacked a receiving policy that
would ensure a uniform process for receiving all property items, and a
formal fixed asset policy. Although Corcoran’s informal, unwritten fixed
asset policy established a $2,000 threshold for property items, it did not
identify a radio purchased with grant funds that exceeded the threshold, nor
was the item recorded in Corcoran’s official property records. We make
several recommendations to COPS to ensure Corcoran address these
weaknesses.

      Based on our grant expenditure testing, we found significant
indications that Corcoran and its sub-recipient, Lemoore, did not adhere to
COPS’ non-supplanting policy. The grant funded the personnel costs
associated with four police officers that were re-assigned from the four
police departments to the Kings County Narcotics Task Force. Each of the
four agencies was required to backfill the vacated positions with entry-level
sworn police officers. We found that this was not accomplished in two cases
in a manner that would ensure that the COPS funding supplemented rather
than supplanted local resources. As a result, we calculated that $41,328 in
grant funded police officer personnel costs related to Corcoran’s failure to
adequately backfill its position. Likewise, Corcoran allowed similar violations
to occur with one of its sub-recipient, Lemoore ($52,172). Therefore, we
questioned a total of $93,500 due to Corcoran and Lemoore’s failure to
adequately backfill their grant-funded positions.

      In addition, we identified $186,907 in Hanford’s and Lemoore’s salary
and fringe benefit charges that lacked adequate support to indicate that the
funded officers’ work was fully dedicated to the narcotics task force. Based
on our transaction testing, we found that the KCSO’s personnel costs also
lacked adequate support, such as time certifications signed by the employee
and approved by a supervisor. These time studies indicated that Corcoran
improperly charged $3,470 of the KCSO’s expenditures to the grant.
Additionally, we questioned $36,752 in personnel costs related to the KCSO’s
lack of adequate support.

      We also found $1,200 in unsupported charges related to a canine
stipend that an officer received. Corcoran lacked support for the canine
stipend to indicate it was used for grant-related purposes. Therefore, we
questioned the amount of the stipend.


                                    - 30 -
       Corcoran filed inaccurate FSRs that were not based on information
from Corcoran’s financial management system. Also, only two of eight
required FSRs were filed; of these, one FSR was filed late, and one FSR was
filed in a timely manner. Lastly, Corcoran failed to comply with a grant
condition related to maintaining required employment eligibility verification
forms. As a result, we make 12 recommendations to COPS to ensure
Corcoran addresses each of our findings.

Recommendations

      We recommend that COPS ensure that Corcoran:

      2.   Strengthen its internal controls and establish clearly defined
           responsibilities for its financial personnel to include adequate
           separation of duties.

      3.   Establish a receiving policy that includes a uniform process for
           receiving all items as well as verifying that the proper items have
           been received, in the correct quantity, and in good working order.

      4.   Establish procedures to time drawdowns as close as possible to
           the incurrence of expenditures.

      5.   Remedy $41,328 in questioned costs for Corcoran and $52,172 for
           Lemoore for failing to adequately backfill the required positions.

      6.   Remedy $186,907 of inadequately supported grant expenditures
           related to personnel costs from Corcoran’s sub-recipients, Hanford
           and Lemoore.

      7.   Remedy $3,470 of unallowable grant expenditures related to the
           KCSO’s personnel costs that did not relate to the grant.

      8.   Remedy $36,752 of inadequately supported grant expenditures
           related to personnel costs from Corcoran’s sub-recipient, the
           KCSO.

      9.   Remedy $1,200 in unsupported canine stipends paid to a Corcoran
           police officer.

      10. Establish a process to ensure expenditures are properly approved.

      11. Establish a formal fixed asset policy and properly record all grant-
          funded property purchases on its official property records.


                                     - 31 -
12. Establish a process for preparing accurate and complete FSRs and
    that all FSRs are submitted in a timely manner.

13. Establish procedures to comply with the grant condition requiring
    the retention of Forms I-9.




                             - 32 -
                                                                APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objectives of this audit were to: (1) assess whether COPS
appropriately funded Corcoran’s Technology Program grant application in
accordance with the 2008 Consolidated Appropriations Act and COPS’
Technology Program requirements, and (2) determine whether Corcoran’s
cost reimbursements claimed under the grant were allowable, reasonable,
and in accordance with applicable laws, regulations, guidelines, compliance
with grant requirements, and terms and conditions of the grant. The latter
included a review of Corcoran’s internal control environment; cash
management; grant expenditures; property management; FSR and Progress
Reports; and program performance and accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit’s
objective.

       Unless otherwise specified, our audit covered, but was not limited to,
activities that occurred between the start of Grant 2008-CK-WX-0228 in
December 2007 through February 2011. Further, the criteria we audited
against are identified in the body of our report and contained in the Code of
Federal Regulation, OMB Circulars, and specific program guidance, such as
award documents.

      We did not test internal controls for Corcoran taken as a whole or
specifically for the grant program administered by the Corcoran. An
independent Certified Public Accountant conducted an audit of Corcoran's
financial statements. The results of this audit were reported in the Single
Audit Report that accompanied the Independent Auditors’ Report for the
year ending June 30, 2010. The Single Audit Report was prepared under the
provisions of OMB Circular A-133. We reviewed the independent auditor’s
assessment to identify control weaknesses and significant noncompliance
issues related to Corcoran or the federal programs it was administering, and
we assessed the risks that those findings have on our audit.

       Additionally, we performed testing on grant expenditures, drawdown,
and property management and limited sample testing on payroll. In this
effort, we employed judgmental sampling and we identified samples of two


                                    - 33 -
payroll timesheets. We tested: all seven grant expenditures from the
beginning of the grant to the end of our fieldwork, one item of accountable
property, and two drawdowns. However, we did not test the reliability of the
financial management system as a whole, nor did we place reliance on
computerized data or systems in determining whether the transactions we
tested were allowable, supported, and in accordance with applicable laws,
regulations, and guidelines.

       Finally, based on data that COPS provided to us, we evaluated all
COPS Technology Program grants for FYs 2008, 2009, and 2010 that were
earmarked by Congress in order to determine how many had budgeted
personnel costs exceeding 40 percent of the total award. As a result, we
found 35 grants that fit this parameter. We reviewed each of the 35 grant
applications to determine if COPS approved any applications that funded the
salaries and fringe benefits of sworn police officers. We found only one
award besides the grant that we audited that met this criteria. That award
included funding for a law enforcement officer that was involved in building a
cold case database. We did not consider this to be in violation of the intent
of the legislation because there was a technological connection to the
officer’s involvement in the grant. We did not check the integrity of the data
that COPS provided to us.




                                    - 34 -
                                                             APPENDIX II

              SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                  AMOUNT ($) PAGE

Unsupported Costs

  Inadequately supported Hanford expenditures        $ 124,363      22
  Inadequately supported Lemoore expenditures           87,419      22
  Inadequately supported KCSO expenditures              36,752      23
  Unsupported Corcoran canine stipend                    1,200      24

Subtotal of Unsupported Costs                        $ 249,734

Unallowable Costs

  Corcoran inadequate backfilling                    $   41,328     15
  Lemoore inadequate backfilling                         52,172     17
  Non-grant-related KCSO expenditures                    $3,470     23

Subtotal of Unallowable Costs                        $   96,970

Less: Duplication between Lemoore’s
Unsupported and Unallowable Costs                     <$24,875>     22

TOTAL QUESTIONED COSTS                               $ 321,829

TOTAL DOLLAR RELATED FINDINGS                        $ 321,829




Questioned Costs are expenditures that do not comply with legal,
regulatory, or contractual requirements, or are not supported by adequate
documentation at the time of the audit, or are unnecessary or unreasonable.
Questioned costs may be remedied by offset, waiver, recovery of funds, or the
provision of supporting documentation.


                                   - 35 -
                                                                        APPENDIX III

            SCHEDULE OF ALL GRANT-RELATED EXPENDITURES
             FOR CORCORAN, HANFORD, LEMOORE, AND KCSO
                         AS OF FEBRUARY 28, 2011

                                                        Cumulative            Overdrawn
                                                                                      22
Agency         Date or Time Period         Amount       Expenditure            Amount
Corcoran            12/10/08                $2,273        $2,273              $(605,672)
        4th Quarter 2008 Total              $2,273


 KCSO                01/11/09               $2,707         $4,980             $(602,965)
 KCSO                01/25/09               $2,708         $7,688             $(600,257)
 KCSO                02/08/09               $2,702        $10,390             $(597,555)
 KCSO                02/22/09               $2,706        $13,096             $(594,849)
 KCSO                03/08/09               $2,711        $15,807             $(592,138)
 KCSO                03/22/09               $2,710        $18,517             $(589,428)
        1st Quarter 2009 Total             $16,244


 KCSO                04/05/09               $2,701        $21,219             $(586,726)
Hanford        04/06/09 - 04/19/09          $3,737        $24,956             $(582,989)
 KCSO                04/13/09               $3,192        $28,148             $(579,797)
 KCSO                04/19/09               $2,710        $30,858             $(577,087)
Hanford        04/20/09 - 05/03/09          $3,737        $34,595             $(573,350)
Corcoran       05/01/09 - 06/30/09         $18,929        $53,523             $(554,442)
 KCSO                05/03/09               $2,705        $56,228             $(551,717)
Hanford         05/4/09 - 05/17/09          $3,737        $59,965             $(547,980)
 KCSO                05/17/09               $2,712        $62,677             $(545,268)
Hanford        05/18/09 - 05/31/09          $4,741        $67,418             $(540,527)
Corcoran             05/31/09               $1,000        $68,418             $(539,527)
 KCSO                05/31/09               $3,795        $72,213             $(535,732)
Hanford        06/01/09 - 06/14/09          $3,737        $75,950             $(531,995)
 KCSO                06/14/09               $2,714        $78,664             $(529,281)
Hanford        06/15/09 - 06/28/09          $3,737        $82,401             $(525,544)
 KCSO                06/28/09               $2,718        $85,119             $(522,826)
        2nd Quarter 2009 Total             $66,602




     22
          On November 6, 2008, Corcoran drew all the grant funds, $607,945.


                                          - 36 -
                                               Cumulative    Overdrawn
Agency        Date or Time Period   Amount     Expenditure    Amount
Hanford       06/29/09 - 07/12/09    $3,780      $88,900     $(519,046)
Lemoore             07/01/09         $5,786      $94,686     $(513,259)
Lemoore             07/01/09          $915       $95,601     $(512,344)
 KCSO               07/12/09         $2,691      $98,293     $(509,652)
Hanford       07/13/09 - 07/26/09    $3,558     $101,850     $(506,095)
 KCSO               07/26/09         $3,423     $105,273     $(502,672)
Hanford       07/27/09 - 08/09/09    $3,865     $109,138     $(498,807)
Corcoran            07/31/09         $9,439     $118,577     $(489,368)
Lemoore             08/01/09         $6,961     $125,538     $(482,407)
 KCSO               08/09/09         $2,690     $128,228     $(479,717)
Hanford       08/10/09 - 08/23/09    $3,865     $132,093     $(475,852)
 KCSO               08/23/09         $2,690     $134,783     $(473,162)
Hanford       08/24/09 - 09/06/09    $3,865     $138,648     $(469,297)
Corcoran            08/31/09         $9,509     $148,157     $(459,788)
Lemoore             09/01/09         $6,765     $154,922     $(453,023)
 KCSO               09/06/09         $2,690     $157,612     $(450,333)
Hanford       09/07/09 - 09/20/09    $3,865     $161,477     $(446,468)
 KCSO               09/20/09         $2,690     $164,167     $(443,778)
Corcoran            09/30/09         $7,855     $172,022     $(435,923)
        3rd Quarter 2009 Total       $86,902


Hanford       09/21/09 - 10/04/09    $3,865     $175,887     $(432,058)
Lemoore             10/01/09         $6,162     $182,048     $(425,897)
 KCSO               10/04/09         $2,690     $184,738     $(423,207)
Hanford       10/05/09 - 10/16/09    $3,865     $188,603     $(419,342)
 KCSO               10/18/09         $2,833     $191,437     $(416,508)
Hanford       10/19/09 - 11/01/09    $3,865     $195,302     $(412,643)
Corcoran            10/31/09         $8,052     $203,354     $(404,591)
 KCSO               11/01/09         $2,833     $ 206,187    $(401,758)
Lemoore             11/01/09         $7,069     $213,256     $(394,689)
Lemoore             11/01/09         $1,596     $214,852     $(393,093)
Hanford       11/02/09 - 11/15/09    $3,865     $218,717     $(389,228)
 KCSO               11/15/09         $2,833     $221,550     $(386,395)
Hanford       11/16/09 - 11/29/09    $4,889     $226,439     $(381,506)
 KCSO               11/29/09         $3,657     $230,096     $(377,849)
Corcoran            11/30/09         $8,052     $238,148     $(369,797)
Hanford       11/30/09 - 12/13/09    $3,872     $242,020     $(365,925)
Lemoore             12/01/09         $6,585     $248,605     $(359,340)



                                    - 37 -
                                                Cumulative    Overdrawn
Agency        Date or Time Period     Amount    Expenditure    Amount
 KCSO              12/13/09            $2,833    $251,438     $(356,507)
Hanford        12/14/09 - 12/27/09    $3,558     $254,996     $(352,949)
 KCSO               12/27/09          $2,833     $257,829     $(350,116)
Corcoran            12/31/09          $9,574     $264,403     $(340,542)
        4th Quarter 2009 Total        $95,381


Hanford        12/28/09 - 01/10/10    $3,872     $271,2745    $(336,670)
Lemoore             01/01/10          $6,852     $278,127     $(329,818)
 KCSO               01/10/10          $2,833     $280,960     $(326,985)
Hanford        01/11/10 - 01/24/10    $5,376     $286,336     $(321,609)
 KCSO               01/24/10          $2,833     $289,169     $(318,776)
Hanford        01/25/10 - 02/07/10    $4,007     $293,177     $(314,768)
Corcoran            01/31/10          $7,802     $300,979     $(306,966)
Lemoore             02/01/10          $6,708     $307,687     $(300,258)
 KCSO               02/07/10          $2,833     $310,520     $(297,425)
Hanford        02/08/10 - 02/21/10    $4,007     $314,528     $(293,417)
 KCSO               02/21/10          $2,833     $317,361     $(290,584)
Hanford        02/22/10 - 03/07/10    $4,007     $321,368     $(286,577)
Corcoran            02/28/10          $8,050     $329,418     $(278,527)
Lemoore             03/01/10          $7,144     $336,562     $(271,383)
 KCSO               03/07/10          $2,833     $339,395     $(268,550)
Hanford        03/08/10 - 03/21/10    $4,007     $343,402     $(264,543)
 KCSO               03/21/10          $2,833     $346,236     $(261,709)
Corcoran            03/31/10          $12,075    $358,310     $(249,635)
        1st Quarter 2010 Total        $90,907


Hanford        03/22/10 - 04/04/10    $4,007     $362,318     $(245,627)
Lemoore             04/01/10          $6,698     $369,015     $(238,930)
 KCSO               04/04/10          $2,833     $371,849     $(236,096)
Hanford        04/05/10 - 04/18/10    $4,007     $375,856     $(232,089)
 KCSO               04/18/10          $2,833     $378,689     $(229,256)
Hanford        04/19/10 - 05/02/10    $4,007     $382,697     $(225,248)
Corcoran            04/30/10          $8,050     $390,747     $(217,198)
Lemoore             05/01/10          $8,516     $399,262     $(208,683)
Lemoore             05/01/10          $1,582     $400,845     $(207,100)
 KCSO               05/02/10          $2,833     $403,678     $(204,267)
Hanford        05/03/10 - 05/16/10    $4,007     $407,686     $(200,259)




                                     - 38 -
                                                 Cumulative    Overdrawn
Agency        Date or Time Period      Amount    Expenditure    Amount
 KCSO              05/16/10             $2,833    $410,519     $(197,426)
Hanford        05/17/10 - 05/30/10     $5,045     $415,564     $(192,381)
 KCSO               05/30/10           $3,932     $419,495     $(188,450)
Corcoran            05/31/10           $8,050     $427,545     $(180,400)
Hanford        05/31/10 - 06/13/10     $4,007     $431,552     $(176,393)
Lemoore             06/01/10           $8,079     $439,632     $(168,313)
 KCSO               06/13/10           $2,833     $442,465     $(165,480)
Hanford        06/14/10 – 06/27/10     $3,882     $446,346     $(161,599)
 KCSO               06/27/10           $2,833     $449,180     $(158,765)
Corcoran            06/30/10           $8,050     $457,229     $(150,716)
      2nd Quarter 2010 Total           $98,919


Hanford        06/28/10 – 07/11/10     $4,057     $461,286     $(146,659)
Lemoore             07/01/10           $7,844     $469,130     $(138,815)
 KCSO               07/11/10           $2,841     $471,971     $(135,974)
Hanford        07/12/10 – 07/25/10     $3,742     $475,713     $(132,232)
 KCSO               07/25/10           $3,747     $479,461     $(128,484)
Hanford        07/26/10 – 08/08/10     $3,994     $483,454     $(124,491)
Corcoran            07/31/10           $7,322     $490,777     $(117,168)
Lemoore             08/01/10           $6,896     $497,673     $(110,272)
 KCSO               08/08/10           $2,841     $500,514     $(107,431)
Hanford        08/09/10 – 08/22/10     $3,994     $504,508     $(103,437)
 KCSO               08/22/10           $2,841     $507,349     $(100,596)
Hanford        08/23/10 – 09/05/10     $3,994     $511,343     $(96,6012)
Corcoran            08/31/10           $6,916     $518,259     $(89,686)
Lemoore             09/01/10           $6,937     $525,196     $(82,749)
Hanford        09/06/10 – 09/19/10     $3,962     $529,157     $(78,788)
 KCSO               09/05/10           $2,841     $531,999     $(75,946)
 KCSO               09/19/10           $2,841     $534,840     $(73,105)
Corcoran            09/30/10           $8,206     $543,046     $(64,899)
        3rd Quarter 2010 Total         $85,816


Lemoore             10/01/10           $7,059     $550,105     $(57,840)
 KCSO               10/03/10           $2,841     $552,946     $(54,999)
 KCSO               10/17/10           $2,841     $555,788     $(52,157)
Corcoran            10/31/10           $2,784     $558,572     $(49,373)
 KCSO               10/31/10           $2,841     $561,413     $(46,532)




                                     - 39 -
                                                        Cumulative        Overdrawn
 Agency        Date or Time Period        Amount        Expenditure         Amount
 Lemoore            11/01/10               $7,161        $568,574          $(39,371)
  KCSO               11/14/10              $2,841         $571,415         $(36,530)
  KCSO               11/18/10              $3,667         $575,082         $(32,863)
 Lemoore             12/01/10              $6,404         $581,486         $(26,459)
  KCSO               12/12/10              $2,841         $584,328         $(23,617)
  KCSO               12/26/10              $1,350         $585,678         $(22,267)
 Lemoore             01/01/11              $6,859         $592,537         $(15,408)
 Lemoore             02/01/11              $6,986         $599,523          $(8,422)
         4th Quarter 2010 Total              $56,478
Source: OIG analysis of data provided by Corcoran, Hanford, Lemoore, and the KCSO.




                                        - 40 -
                                                                                             APPENDIX IV


CORCORAN, CALIFORNIA, POLICE DEPARTMENT RESPONSE



      City of



      CORCORAN
      Police Department ___________________F_C_U_N_C_E_C_'_B_'_"




    Mr. David 1. Gaschke, Regiona l Audit Manager                                                May 17,2011
    Office of the Inspec tor General ,
    UNITED STATES DEPARTMENT OF JUSTIC E                                            Via fax , U.S. mail and
    1200 Bayhill Drive, Suite 20 1                                                                   email:
    San Brllllo, Cal ifomia 94066                                                            650-8 76-0902
                                                                                Oavid.J.Gaschkc@ usdoj.go
                                                                                                             v

    RE:     Res ponse to Draft Audit Report for COPS Grant Awarded to Corcoran Police
            Oepaltment, Grant No. 2008-CK-WX-0228

    Dear Mr. Gaschke:

    Thank you for your letter dated April 25, 2011 and your email dated May 5, 20 II which pro vided
    the Co rcoran Police Department ("CPD") w ith an opportunity to respond by May 30, 20 11 to the
    audit repOIt for the above-referenced grant. This corresponden ce constitutes the CPO 's initial
    response to recommendations 2 through 13 in the draft audi t report and we ask that it become part of
    the final audit report.

    As you are already aware , the CPO 's June 25, 2008 grant application specifica lly requested funding
    fo r salaries and benefits of four (4) sworn law en forcement officers. Each of th e four (4) officers
    were from four separate law enfo rcement agencies that parti cipate in coordinated co untywide
    Narcoti cs and Gang Taskforce operations which focused on eliminatin g the prol iferatio n of narcot ics
    and the gangs that traffic the m within Kings County. As expla ined in the attached letter, dated
    October 30,2008, from U.S. Representative Ji m Costa to COPS Program Coordinator Ca rl Peed, the
    awarded gra nt funds were ea rmarked for th ese purposes. [See EXHIBIT A.] In his May 5, 20 11
    letter to In spector General Cynth ia Schnedar, U.S. Representat ive Jim Costa furt her explai ned that
    the awarded grant funds origi nated from an earmark request from hi s office for this proj ect. [See
    EXHIBIT 8.] Accordingly, normal grant review criteri a are not applicable.

    With regard to recommendat ions 2 through 13 in the audit repol1, the C PO responds as follows:

    Recommendation No.2
    The CPO agrees to implement thi s recommendation and is w ill ing to take steps to Further strengthen
    its interna l controls and establish more cl early defined res ponsibilities for its finan cial personnel,
    includ ing separa tion of duties. To acco mplish this, CPO sha ll work with the City Manager's office
    and the City's Finance Department.




                                         Reuben Shortnacy. Chief of Police
   1031 Chittenden Avenue        Corcoran. California 93212      Phone 559/992-5151             Fax 559/992-5155




                                                 - 41 ­
Mr. Dav id 1. Gaschke, Regional Audit Manager
RE:      Response to Draft Aud it Report for COPS Grant Awarded to Corcoran Police
         Department, Grant No. 2008-CK-WX-0228
May 17,201 1
Page 2

Recommendation No.3
The CPO agrees to imp lement this recommendation by uti lizing a writte n receiv ing policy that
includes a uniform process for receiving all purc hased items as well as verify ing that the correc t
items are received, in the correct quantity and in good work ing order.

Recommendation No.4.
The CPO agrees to implement this recommendati on by uti lizi ng procedures to ti me drawdowns as
close as possible to the incu rrence of expenditures. The CPO believes that its drawdown of funds
from this grant were authorized because, as noted in the October 30, 2008 letter attached hereto as
EXHIBIT A, U.S. Representative J im Costa wrote to COPS Program Coordinator Carl Peed and
specifically requested a waiver of the norma l drawdown requi rements and, in patticular, that a lu mp
sum drawdown be authorized. After consideration of the practical reasons necessitating a lump sum
drawdown in this particu lar case, the COPS Progra m authorized drawdown of funds that deviated
from standard protocol because the COPS Program was aware that the fu nding wou ld be used as
proposed in the CPD's grant appl ication.

Recommendation No.5.
The CPO disagrees with th is recolllmendation to the extent that it wou ld requ ire a recovery or offset
of questioned costs but agrees with this recommendation to the extent that questioned costs would be
remedied by a waiver or by prov iding suppo lti ng documentation. Waiver is most appropriate in the
context of this pa rticular grant award because, as the aud it report concludes on page 28,
" ... Corcoran met its goal of reassigning officers to the narcotics task force." In other words,
regardless of whether or not CPD was ab le to hire rep lacements into non-taskforce pos itions (i .e.
pos itions not funded by the grant) that became vacant during the ti me that the newly created
Narcotics and Gang Taskforce position was filled with grant funds, no supplanting occurred. The
audit report acknowledges that the taskforce positions were newly created as a resu lt of the grant
funding, and yet thosc newly created positions remained fi lled even after the grant was fully
d isbursed. Accordingly, in this case high turnover in positions not funded by the grant is not
probative as to whether the grant funds supp lanted existing funds and the evidence clearly shows
that no supp lant ing occurred because the taskforce pos itio ns wo uld not exist if the grant was not
awarded since each participati ng agcncy did not fund a taskforce officer prior to the grant. We also
bel ieve that us ing a 5% turnover rate is not a sufficient gauge because actual turnover rates often
vary from estimated averages. For these reasons, the CPD feels that a wa iver is most appropriate.

Reco mme ndation No.6.
The CPD disagrees with this recommendation to the extent that it would requi re a recovery or offset
of questioned costs but agrees with this recommendation to the extent that quest ioned costs would be
remed ied by a wa iver or by prov idi ng support ing documentat ion. Waiver is most appropriate in the
context of th is particular gra nt award because the documentation sought has been more akin to the
documentation that wou ld be expected if the grant fund ing were used to purchase equipment, which
was not the type of grant proposal subm itted by CPO and approved by the COPS Program. These
agencies are will ing to provide the supporting ti mesheets and/or appropriate certifications to
establish that, on average, their task force officer spent 100% of their ti me on grant-funded activities,




                                             - 42 ­
Mr. David 1. Gaschke, Regional Audit Manager
RE:     Response to Draft Audit Report fo r COPS Grant Awarded to Corcoran Poli ce
        Depa rtment, Grant No. 2008-CK-WX-0228
May 17,20 11
Page 3

with on ly de millimliS involvement in non-taskforce emergency service call s which were turned over
right away to non-taskforce officers.

Recommendation No.7.
The CPO disagrees with this recommenda ti on to the extent th at it would requ ire a recove lY or offset
of questioned costs but agrees with this recommendation to the extent that questioned costs would be
remedied by a waiver or by providing supporting documentation.

Reco mmenda ti on No.8.
Th e CPO di sagrees with thi s recommcndation to the extent that it wou ld requi re a recovery or offset
of questioned costs but agrees with this recommendation to the exten t that questioned costs wou ld be
remedi ed by a waiver or by providing suppoI1ing documentati on. This age ncy is wi lling to prov ide
the support ing timcshcets and/or appropriate certification s to establish that, on average, their
taskforce offi cer spent 100% of their time on grant-funded act ivities, with only de mil/iII/lis
involvement in non -taskforce emergency service cal ls which were turned over right away to non­
task force officers. For any per iods not covered by timesheets or certi fica tion, a waiver is most
appropriate because of the context of thi s particular grant award, and particularly that the funding
was prov ided for gang and narcotic suppression operations rather than equipment. The funding was
spec ifi ca lly earmarked for these broad purposes and therefore formal grant requi rements should not
be used as a benchmark .

Recommendation No. 9.
The CPO disagrees with this recommendation to the extent that it wo uld require a recovery or offset
of questioned costs but agrees with this recommendat ion to the extent that questioned costs would be
remed ied by a waiver. A waiver is most appropriate for this item also because of the context of this
palticu lar grant award, and particularly that the funding was provided fo r gang and narcotic
suppression, and the canine was obviously used for na rcotic detection purposes, which is within the
broad scope for whic h the fundin g was awarded. The fac t that the fundin g was spec ifi ca lly
earmarked fo r the taskforce and these broad purposes supports the concl usion that forma l grant
requ irements should not be lIsed as a benchmark for th is expenditu re.

Recommendation No. 10.
The CPD agrees to implement thi s recommendation by reduc ing its pay ment approva l process to a
written po li cy. This will ensure that expenditu res are properl y approved because it will contain
clearly defined responsib il it ies for each perso n in this process. To accompli sh this, CPO sha ll work
the City Manager's office and the C ity's Finance Department.

Recommendation No. I I .
The CPO agrees to impl ement this recommendation by reducing to writing its formal fixed-asset
records process which wi ll ensure proper recording of all grant-funded property purchases in CPO 's
official propelty records and spec ifi ca ll y identify property purchases made wi th federal funding.

Recomme ndati on No. 12.




                                             - 43 ­
Mr. David 1. Gasc hke, Regional Audit Manager
RE:     Response to Draft Audit Report for COPS Grant Awarded to Corcoran Police
        Department, Grant No. 2008-CK-WX-0228
May 17,201 1
Page 4

The CPO agrees to implement th is recommendation by utiliz ing a process for preparing accurate and
complete financial status reports and ca lendaring thei r timely subm ittal, typically with in 30 days
after the relevant repo lting period as required by 28 C.F.R. § 66.4 1.

Recommendation No. 13.
The CPD agrees to implement this recommendation by utilizing a process where the CPO a lso
obta ins and retai ns a copy of Fo rm 1-9 for all emp loyees to be pa id from grant funds. Although the
Human Resources Coordinator for the City of Corcoran al ready verifies Form 1-9 fo r all new hires,
the CPD would a lso mai ntai n cop ies of eac h Form 1-9 for all CPO employee pos itions fun ded by
federal grants.

In considering our req uest for waivers of questioned costs, we also ask that cons ideration be given to
the fact that the gra nt funding to the Kings Cou nty Narcotics and Gang Taskforce was consistent
with the inc umbent presidentia l adm inistration's shifting of the COPS Program focus, as noted in a
relevant O IG publication:

         "However, the decl in ing trend in CO PS fund ing and the shift away from hiri ng
         grants was recently reversed by the American Recovery and Rei nvestment Act of
         2009 (Recovery Act). In the Recovery Act, whi ch was signed into law on Feb ruary
         17, 2009, COPS received an additional $ 1 bi ll ion in fu nds to help address t he
         per sonnel needs of state, loca l, and tri bal law enforcement through the hiring,
         rehiring, and r etaini ng of career law enforcement officers."

[Improving the Office a/Community Oriented Policing Services' Grallt Awardil1g, Monitoring, alld
Program Evaluatiol1 Processes, June 2009, U.S. Departme nt of Justice, Office of the Inspector
General, pg.l; Emph as is added.]

         "I n add ition to reversing the gene ral trend in declining fi nancia l suppmt for COPS,
         the Recovery Act has aga in made hiring the central focus of COPS ' grant programs."

(ld. at 3.]

The C ity of Corcoran is tha nkfu l to the COPS Program for providi ng funding for the Narcotics and
Gang Taskforce operations which led to the local disman tl ing of tile notorio usly prom inent prison
gang Nuestm Familia, whic h operated a drug traffick ing ri ng within Kings Co unty. EXHIBIT 9 in
the audit report clearly evidences that the COPS funding to the Kings Co un ty Na rcotics and Gang
Taskforce directly resulted in increased narcotics arrests by funding increased investigation hours,
ulti mately leading to the alTest o f dozens of Nllestra Familia gang members.




                                             - 44 ­
Mr. David J. Gaschke, Regiona l Audit Manager
RE:     Response to Draft Audit Report for COPS Grant Awarded to Corcoran Police
        Department, Grant No. Z008-CK-WX-OZZ8
May 17, ZOII
Page 5


Please let us know i       u have any further quest ions or conccms. Thank you.

Best regards,




Reube{ P. Shortnacy, Ch ief of Police

Enclosu re(s): EXHIBIT A: 10/30/20 11 Letter from U.S. Representative Jim Costa to COPS
               Program Director;

                EXffiBIT B: 515/2011 Letter from U.S. Representative Jim Costa to Inspector
                General;

CC:             City Manager;
                City Attorney; and

                Mr. Donald J. Lango, COPS Management Analyst
                Office of Community Oriented Policing Services (COPS)
                U.S. DEPARTMENT OF JUSTICE
                Audit Liaison Division
                145 N Street, NE
                Washington, District of Colu mbia 20530




                                            - 45 ­
EXHIBIT
    A




 - 46 ­
                     JIM COSTA                                                                                        CO MMITl EE ON AGIlI CU LlUll f


                                                                                                                                S'I<"""""" "-'
 EMllll       CQn~" ' .. n"" i ,mca" '@ m .'I.~""" e .II'"                                                                l:-.""G,,,D ...,   ",1'<.-... ,..
           VlEB !,,\(,r, : w .. w_It,", ••.go~"',", I"
                                                                                                                         COMMI fTEE ON fOREIGN
  CGI~ l.II nf.F      O N NM URAL RESOURCES
                                                             (E0l1YfC55      of fh,c lllnifeo               ;§t&tC5             AFFAIRS
                                                                                                                             S>.M "-,'~ " ,,, ""
                                                                                                                                  £c",,"
                                                                 i!jllltS£   of JReprcs£utatiu£s
                     S ... ~ O '"'."    '"   ; .,
                     \ \ '." " . '.' f'· · ... (~
                                                                   1l1ilsi)ingtllt1, D.<!:. 2D515

                                                                     October 30, 2008

                 Me Carl Peed
                 COPS Program Director
                 950 Pennsylvania Ave, NW
                 Washington. DC 20530

                 Dear Mr. Peed:

                         At the end of the first session of the 110th Congress, the Consolidated Appropriations
                 Act of 2008 (the Aet) was passed. Within the Commerce, Justice and Science section of the bill,
                 approximately $6 11.000 was induded for the City of Corcoran's Narcotics and Gang Task Force
                 Expansion project. This was fu nded in the Community Oriented Policing Services program. I
                 submitted this project for the C ity of Corcoran as one of my appropriations requests for fiscal
                 ycur 2008. Over the last ten months, my officc has been helping the Ci ty of Corcoran to fiecure
                 these funds from the Department of Justice COPS Program Office, but the City has still not
                 rCl:cived any of the funds Congress approved for them.

                          As you are aware, funding for the Narcotics and Gang Task Force Expansion project
                 would allow police departments in Corcoran, Hanford and Lemoore, along with the Kings
                 County Sheriff's Department to add additional investigators to the Narcotics Task Force and
                 Gang Task Forcc, and make new equipment purchases. These departments have full intcnsion
                 on making these new invest igators permanent hires over the next few years. The San Joaquin
                 Valley is home to numerous gangs, and these additional investigators will help address gang
                 violence, as we ll as address the manufacture, distribution and use of methamphetamine in my
                 district. While I am aware that these funds arc not Ilonnally used to hire staff, 1 know it wi ll help
                 reduce crime in Kings County,

                          The police chief for the City of Corcoran, Reuben Shortnacy, has informed my office that
                 hc will not be allowed to lake a lump sum payment of these funds, which is necessary in order to
                 divide and allocate the mOl1ey among four partiCipating law enforcement agencies. r am aware
                 this is not the standard operating procedure for the COPS Program, but in order for this program
                 to be effective, I am requesting Ch ief Shortnacy have access to the $607,945 so he can divide up
                 the money as needed. As a strong advocate for oversight, especially when spending earmarked
                 funds, I am confident lhat Chief Shortnacy would have no problem with the Department of
                 Justice auditing the use of the program money, should they request such authority. For your
                 reference. I have attached a document to this letter detai ling exactly how the funds will be
                 allocated in Kings County.



                                                                                 1Jl~! ~'CI   O' '' CI                              ~ , S I;;':C'   C,", Ci
               ... . ... N: . "
: ~ \ · i l ~ ·, ·                     n·,_,
                                          5.                                 855 t.: 5 '.,,·, 5 ...,. 940                      veo M 5 " " " . 5.,,, 22~
            W" ... ,,,.,. ,, .. OC 'O!,\S                                        F....,.,"'. CA 93121                           !l."""~.n ,   CA 933fH
             .."",: I?02' 27.S ~~.\ I                                        ? ,.".! ; (559) 4~S · 1 62 0                       p,~"t: tGG l l 869·1620
                 ' . ';'01 . 2;1!, n :
                                     U;8                                        ~ .., · :1 ~591~9~ I on                           "" " (65 1) I?S9· ) 02'




                                                                               - 47 ­
        After receiv ing Congressional approval for the funds, the police department has drufted
budgets which include the federal funding awarded by Congress. It is important to me that the
law enforcement agencies in Kings County receive this funding in a timely and appropriate
manner that allows for proper implementation of this program. Although the San Joaquin Valley
receives lim ited federa l funding for programs, r have high confidence in the program Chief
Shortnacy is headi ng lip on behalf of the law enforcement agencies in Kings County.

        Thank you for your attention to this matter. Should YOll have any further question, please
feel free to contact Bret Rumbeck of my staff ar 202-225-334 1.



                                     s~:e~
                                     ~ COSTA
                                     Member of Congress

Enclosure: Budget breakdown
           Letter from Police Chief Shortnacy




                                          - 48 ­
EXHIBIT
    B




 - 49 ­
                                                        ,
                                                        I


                                                                                                         COMMITTEE ON                r.G~I C Ul TU"'~
                    JIM COSTA
           10",      a,s' ."'''',   C~ "'''''WA
    WEB PAaf: w .. w.< .... ~.My.~_ " o ...
                                                                                                             R""",-   D"·,,~, ,, .~1.   RIS'.""'.,
COMM ITTH O N NA TURfll RESOU RCES                                                                      FI",,_ .... ~1<""•• >NO F""",,, Ar•.,(o",",
                                                                                                             ,
                                                                                                                       R., ••.•~ o   M,"'"
                    s".~o"     .. "·,,   ~"
                                                            CONGRESS OF THE UNITED STATES
                    w~,   ••   " 0 P, ... ,.
                                                                HOUSE OF REPRESENTATIVES
                                                                  WASHINGTON. DC 205 15



                                                                        May 5, 2011



                          Ms. Cynthia Schnedar
                          Inspector General
                          U.S. Department of Justice
                          950 Pennsylvania Avenue, NW Suite #4706
                          Washington, DC 20530·001


                         Dear Inspector General Schnedar:

                                 This letter concerns the draft audit report for the Kings County Gangs and
                         Narcotics Task Force, located in California's 20th District. As YOll know, the task force
                         recently underwent an audit by your department after receiving a COPS Technology
                         Grant for approximately $607,945 in 2008. This audit was the subject of a discussion
                         you and I had on Marc.h 11 Ill, when. 1 made you aware of the means by which the funds
                         were awarded to the Kings County Gangs and Narcotics Task Force.

                                 As you \vill remember, in the Consolidated Appropriations Aet of2008 (PL. 110M
                         161), I submitted and received a project request for the Task Force. This was funded in
                         fiscal year 2008 in the amount of $611 ,000. · However, as the Department of Justice
                         worked with the Task Force and the City of Corcoran to disseminate these funds, the
                         Department decided to fund the Task Force through a COPS Technology Grant. This
                         funding originated as an earmark request, which was awarded through my office to allow
                         Kings County to participate in a nationwide effort at narcotics eradication that spanned
                         15 states. It was never the intention of Kings County to apply for a COPS Technology
                         Grant.

                                 Since then. the Task Force has been doing tremendous work in the Central Valley
                         to combat violent gangs and pervasive narcotics trafficking. In fact, last year the task
                         force sllccessfully executed a crippling raid on the Nuestra Familia gang, arresting dozens
                         of dangerous gang members and dismantling their narcotics irafficking operations in the
                         region. Th.is law enforcement operation, which included federal partnerships with the
                         FBI. ATF. and State agencies, underscores the irnpOltance of the Task Force to
                         California's Central Valley, which has long been pl~gued by drug abuse and illegal
                         weapons trade.




            W"!;;<!l<G r CN~fFICr                                          "'fS"(JOH,C! .                                  a.>UP.S.' lElC    or ~:~ .
13 14   ~e :,.... e"",
          ...              I;:;';" 0 " .... [\';~r."~                855 M S,!If. ... S... ,.. !l/,(J                 17M M S'~f-'"r , S...... ;>1~
        W~~''':~·e".          DC :l05 i ~                                F."~,,. CA 93n I                               S""'">"(lc. CA !tJ3Cl
        f'.'<;~t:     12Q 21 22il- 334!                              ~''''',c (5591 4 9 ~ ·1620                        f'·. ~"c (66 i \ a69 1620
            F....... ; 1 20~J 22 5· 9JC8                                 F~" 1559) 495·1027                                  F, ... i~611 S69'; On

                                                                               '''-~~''




                                                                      - 50 ­
                     (


Inspector General Schnedar
May 5,2011
Page 2



        Considering the amount and breakdown of the original appropriations request,
judging the Task Force against the COPS Technology grant specifications simply does
not make sense. The draft audit report that the Task Force was provided with references
COPS Technology Grant guidel ines mUltiple times, and cites instances when the Task
Force acted contrari ly to those gui delines. It. is troubling that despite explaining the
background and specifics of this situation to both you and Assistan t Attorney General
Ron Weich, the Kings County Task Force is still being held to COPS Technology Grant
specifications.

       These audit find ings hold the Kings County Task Force to the standards of a grant
to which they never intended to apply, and thus will never be able to satisfactorily meet.
It is simp ly Wlacceptable to penalize the Task Force for an administrative decision made
by the Justice Department. Thank YOli very much for your lime and I look forward to
discussing this matter with you.



                                        ~    ,erel!
                                       ,,;   ~,~
                                  Membe Iof Congress




                                      - 51 ­
LEMOORE, CALIFORNIA, POLICE DEPARTMENT RESPONSE





                                        LECALIFORNIA
           657 Fox Street · Lemoore, Collfornla 93245 • (559) 924·9574 • FAX (559) 924-3116
                                           Police Deportment




    May 9, 2011



    Ms. Cynthia Schneider
    Inspector General
    US Department of Justict:
    950 Pennsylvania Avenue, NW Suite #4706
    Washington, DC 20530-001


    Dear Inspector General Schneider:


    This letter is in response to the draft audit report for the Kings Cou nty Gangs and Narcotics Tal;k
    Force.

    As you know, the Ta~k Force recently underwent an audit by your department after receiving a
    COl'S Technology Granl for approximately $607,945 in 2008. As you will remember, in the
    Appropriates Act passed at the eud of the first session of the 110'" Congress, a project request for
    the Task Force was submitted by Congressman Jim Costa. This wa'l fundeJ in fiscal year 2008
    in the amount of $6 11,000. However, as the Dcpartmcm of Justice worked with the Task Force
    and the City of Corcoran to disseminatc these funds , the Department decided to fu nd the Task
    Force through a COPS Teclmology Grant.

    Considering the amount and breakdown of the original appropriations request, judging the Task
    Force against thc COPS Technology grant specifications simply does not make sense. 'lbe drill
    audit report thaI the Task Force was provided with references to COPS Technology Grant
    guidelines multiple times, and cite.-s instances when the Task Force acted contrarily to those
    guidelines, It is troubling that despite explaining the background and specifics of Ihis situation,
    the Kings County Task Force is still being held to COPS Technology Grant specifications.

    These audit finding ho ld the Kings County Ta..~k Force to the standards of a grant to which they
    never intended to apply, and thus will never be able to satisfactorily meet. It is simply
    unacceptab le to penalize the Task Porce for an administrative decision made by The Justice
    Department.




                                              - 52 ­
The following wil! address issues of the grant specific o f Lcmoore.

Pg 17, Paragraph I: Thc data shows that Lemoore's police officer headcount was not within the
target level of officers between April and June 2010, between August and October 20 10, and in
December 2010. ... .. ... ... ......Therefore, we question $52,172 of the COPS gran!. .. .

Response:

In late 2008, the Lemoore Police Department was notified by Corcoran Police Department that
the COPS grant for bodies was approved. In February 2009, the Lemoore Police Dcpartment
hired on.: officer specifically for the grant task force. He was with the Field Training Officer for
approximately 4 months _ When his FTO program was complett: in late June 2009, he went to
patrol and our Department assigned an officer to the task force. Our Depanment staned billing
the grant for its police officer detailed to the Kings County Task Foree in July 2009.

According to the audit report, our Department headcoWlt was not within the target levt:1 of
officers between April and June 2010, betwt:en August and October 2010, and in December
2010. We had a lready fulfilled our obligation or hiring an officer specifically [or the graot.
However, OllT headcount remained consistent. In January 2010, we began the momh with 31
officers and had one TCtirement which ended the month at 30. In April 20 10, one officer
resigned which put us at 29. In July 2010, a budget reduction was approved which capped our
headeowlI at 29. In August of 2010, we had one of1icer retire and one officer was tenuinated
which put our headcount at 27. In November of 20 10, we hired two officcrs which put us at 29.
In December 2010, an officer resigned which put our hcadcouut at 28. The auditors analysis
docs not show the true picture of our Department as accurately a.~ the above description or the
below graph. To reiterate, we had already fulfilled our obligation of hiring an officer specificaliy
for the grant and the personnel turnover after his hiring had no effect on tlle Task Force Grant.


                       lemoore Police Department Headcount
            N~v· I "doo ~s grM! !~S~ li)r~,     pO$ilioo- Highcl! di:potl!..",,! heiodof'l ""t

     32
     33   ""1=~§E4~~~~~==~i:1
           -b12 . /)"'1) tw..ilell\l:)ll,
               ''',i ""'~, 'Il! "" "
                                                            ,,"l:.,:'~                                                  t


     31
                             'M"
                                                                                             .
                                                                                                                    .
                         , 30 30              30     ,>'A.pr-J Re>i~O'1                                                 Nov'c2N ~,
     30                                                                                                                              "'
     29        ,... rz.                            I.;.2~_ 29,--e29~29 \ , :,                          0>   ,   '       '-9~,
                                                                                                                                  "   <sj~n Oli,,"


     28                f-.;- I-             ~      i",-- I.; I..:..:. .    j~IIlIll<lll  , &: .
                                                                                              1
                                                                                                                             28
     27                f-. I-                      ,... I-;        I-.,-     ~       W7 ·27c,. I,..;
                                                                                      ,...:27r
     26 ·
     25
                -~
                -4
                                        k f-c-                     I-.,-
                                                                   k 1 I--- ~
                                                                     -'- .
                                                                                        .        Ie. -
                                                                                                            - - 1-- 1 I."
                                                                                                                    -"
     24                        L,       '-+                         '-+                          I",




                                                                   2




                                                       - 53 ­
Pg 21 , Paragraph I: (AuditofS had) discussions with the police officers ... Jeamcd that they
sometimes performed non-task foree related activity. Any activity that was non-task force
related would also not be a grant-re lated activity.

Response: All law enforcement officers are sworn to protect and serve regardless if they arc
assigned to the task force or to patrol. TIle citizens of Lemoore deserve an immediate response
when a call for service is dispatched and if a task foree member is closest to the vicinity, they
will respond accordingly. Once additional officers arrive they will tum over the scene. Ta~k
force metnbcrs arc assigned to the task force and 100% ofthcir tim e is billed to the grant. l ne
frequency of the "non-ta.~k force" related response calls arC extremely rare and have not been
included on timeshects as they would not demonstrate ii significant amount of time.

All timeshects for the grant have been maintained, however, they were not submitted to the
C'..orcoran Police Department as they were not requested.

If you have any questions or need clarification, please feel free to contact me at (559) 924-9574.

Respectfully suhmitted,



£~
Chief of "olice

Imjv




                                                 J




                                          - 54 ­
KINGS COUNTY, CALIFORNIA, SHERIFF’S RESPONSE





                                                OFFICE OF

                                             SHERIFF
                                           COUNT Y OF KINGS
                                                P.O. BOX 986                      DA VID ROBINSON
                                          1444 IV. LACEY BLVD.                    SHERIFF-CORONER
                                         HANFORD, CA 93232-0986                        PUBLIC
                                           PI·IONE 559/582-3211                    ADMINISTRATOR
                                             FAX 559/584-4738




  Chief Reuben Shorlnacy
  Corcoran Police Department
  1031 Chillenden
  Corcoran CA 93212

  RE: CPO NTF Granl Audil Response

  Concerning sUllplanting:
  The position was actually added Lo the allocation in July 2008 in accordance with our budget and
  new Fiscal Year. The addition of the position is noted in the published adopted budget books for
  FY08109 . A copy oflhe appropriale budgel book page was emailed to Ihe audilo rs on 4/5/20 11 ,
  after our meeting with them and per their request. That informatio n is not noted in their findings.

         Pg. 15
         We asked officials from Hanford, Lemoore, and the KCSO to provide us with
         information as to whether each agency back-filled the police officer position it reassigned
         to the lask force. In response, officials from bolh Hanford and Ihe KCSO slaled Ihal Ihey
         were unsure if their agencies back-filled the positions reassigned to the task force .

          Pg. 17
          KCSO was with in or above the target range, which incorporates a 5 percent rate for
          tU l'l1over, for the period of our review. However, between Ja nuary 2009 and March 2009,
          in May 2009, and between November 2009 and June 20 10, KCSO 's headcou nt was one
          deputy less than what it should have had on board after receiving its COPS-funded deputy
          position. This concerns us. However, because we found KCSO to be within OUI' target
          range for th e period of alii' review, we did not question costs fo r KCSO.

  Co ncerning Unsupported Personnel Expenses:
  First off they state that they discovered 100 hours that were not allowab le, after rev iev.' of all the
  time st udies I did discover 40 hours that were not allowed, because they were marked as
  "General Operations Time", deducting those hours and the salary dr iven benefits associated with
  them the error totaled $ ) 400. However, the final pay period that we sumbitted for
  reimbursement was shorted by $ 135 1 because J thought the gra nt was rul1y expensed alt hat
  time. After correcting the $ 1400 error, and rebilling for the $1351, there is a net difference of
  $49 in unallowable costs. I don't know how they calculated the 100 hours since there was no




                                             - 55 ­
explination included in the report. It is possible that they werc deducting any
VacationlSieklHoliday time, some grants won't allow that time taken unless it is accrued while
on the grunt. I didn't track that since I wasn't infonned this was that type of funding.

       Pg.22
       We asked KCSO officials ifperiodic certifications were maintained in accordance with 2
       C.F.R. Part 225 to supportlhe granl-related policing activities of the deputy assigned to
       the Kings County Narcotics Ta~k Force. Thc KCSO provided time studies, whieh its
       deputy prepared for every pay period, thai identified the amount of time Ihal the deputy
       devoted to working on the Kings County Narcotics Task Force and the amount lime
       worked on other policing activi ties. OUT analysis of these timc studies found that the
       deputy did not work 100 percent of his time on the task force. Rather, we found that the
       deputy worked 100 hours 011 non-task force related activities or the equivalent of$3,470.
       If Corcoran had requested ~upport for the KCSO invoices, then we believe that it wou ld
       not have inadvertently overcharged the grant for non.granHelated activities. Therefore,
       we queslion $3,470 that was inappropriately charged 10 the grant for the KCSO deputy's
       non-task force related work.

Second, they state that there were 13 lime studies that were nol signed by one or bolh the
employee find the s\lpcrvisor. In ac!uallity there were 15 that were not signed by one or the other,
or both. I didn't persuc thc signatures for thcse particular time sludies as I was using them as an
internal document that hnd signed time eards and signed supplemental shects as backup;
furthermore, I was not told that they would bc required for reimbursement of this funding.
However,l have printed thc scanned copies that I kept on file (and emailed 10 the auditors on
415/11) and have requested that the deputies and sergeant in question come in to sign the
documents ASAP. This should satisfy Ihis issue.

       Pg. 22
       In addition, wc found 13 of the time studics were improperly prepared because the time
       studies lacked both the cmployee's signature and the approval of the deputy's supervisor
       as required by 2 C.F.R. Part 225. lllcrefore, we question $36,752 related to KCSO's
       invoices for lack of adequate support for the KCSO dcputy's activities on the Kings
       County Narcotics Task Forcc.




David Robinson, Shcriff
Kings COllnty

mp




                                                                                                   2




                                         - 56 ­
HANFORD, CALIFORNIA, POLICE DEPARTMENT RESPONSE





                                                                     CITY OF HANFORD
                                                        POLICE DEPARTMENT

                                                                       CARLOS A MESTAS, CHIEF OF POLICE


    May 10, 2011



    U.S. Department of Justice
    Office of the Inspector General
    San Francisco Regional audit office
    San Bruno, California 94066


    Office of the Inspector Genera l:


    This letter shall serve as our response to your draft audit report concerning the monies in the sum of
    $607,945.00 provided to the Corcoran Police Department through Congressman Jim Costa and then
    distributed to local agencies for the personnel enhancement of the Narcotics Task Force in the County of
    Kings, Ca lifornia.

    It is our understanding that the monies provided to Corcoran were not a grant but an earmark and did
    not need to be supported as a grant. This is further supported by the fact that you stated that the
    monies came from the COPPS Technology funding source. This was dearly not a technology grant. This
    money was used for personnel enhancement. The cities involved never attempted to hide this fact and
    were always transparent with what our intentions were for the use of the funds. To then report the use
    of the funds on a technology grant wou ld not make sense since the reporting on a technology grant
    would be for technological improvements and not set up for personnel expenditures. In receiving these
    funds the entities involved followed the instructions given to them by the COPPS office and our
    congressman.


    The city of Hanford handled the funds in an appropriate manner and kept the funds in a separate
    account and not comingled with other monies. Those monies were then used to pay for a second
    investigator in the Kings County Narcotics Task Force Beginning in April of 2009. It is not in dispute that
    the Narcotics Task Force increased by the agreed upon positions for the time periods specified. Your
    audit acknowledges the increase in personnel. The audit then notes a decrease in arrests and asset
    seizures. It would be very simple to measure success if statistics always accurately portrayed reality.
    This however is not the case. The officers worked a large criminal case that involved a great deal of time
    and resources. In the end the Narcotics Task Force successfu lly dismantled a criminal organization
    operating out of the County of Kings that had implications far exceeding the decrease in statistics that
    you found. This organization had state, national and International ties. It resu lted in at least four
    concurrent investigations in other parts of the state and many more arrests. Due to their success on this




               425 NORTH IRWIN STREET. HANFORD, CA 93230          (559) 585·2540      FAX (559) 585-4792




                                                  - 57 ­
 case and the additional funding we received for personnel, we are hopeful that future statistics will also
 be low.


 The Hanford Police Department was pleased to find that according to the audit we did not supplant
 funds. The audit did however find that the costs were not properly supported by documentation. Had
 the auditors asked for the documentation, The City of Hanford could have and still can easily provide
 this information in the form of officer time cards and expenditure reports. I wou ld submit that this
 cou ld not have even been done prior to the audit because there was nothing in place to properly report
 personnel expenditures in the manner in which these monies were received. We were however always
 ready to provide documentation as to the use of these funds should the need arise.


 The City of Hanford, Hanford Police Department believe that the monies we received were properly
 cared for and expended within the guidelines provided to us. We also believe that these issues cou ld
 have been avoided from the beginning had we been properly notified of the expectations associated
 with these funds.

 It was never our intent nor the intent of any of the recipients to be negligent or fraudulent in our dealing
 with these monies. I believe that through this entire process we have been transparent with regard to
 our intended use of the funds received. We are also very appreciative of the monies received and
 believe that they made a significant impact in our community.




{""~ " !v\Q.
 Carlos Mestas:ChIf of Po lice



 Prepared By:




 Parker Sever, Captain




                                               - 58 ­
                                                                                                            APPENDIX V

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
                  RESPONSE


                                                                                                                        oS   JUN   roll



                                                          u.s. Department or Justice
                                                          Office o/Comlllul1ily Oriell/eli Policil1g Service.5 (COPS)
  , hulil U(lisol/ IJi,,;s;oll
  Two COl/sfillllion Square
  1-I5 NSlrel'l,NE
  Washingtol/. Dr 20530
  (102) jl.J-7011(Te1epholle)
  (102) 616-·/.118 (Facsimile)



  lIitl   FOc.'~;l1/ile (lilt!   U. S. Mail

  To:                       Mr. David J. Gaschke
                            Regional Audit Manage r
                            Office of the Inspector General
                            San Francisco ~nal Audit Office
                                             eg i

  From:                     Dona ld J. Lang
                            Management A alyst/ Audit Li aison
                            COPS Audit Li aison Divi sio n

  Date:                     June 3, 2011

  Subject:                   Response to Draft Audit Report for the City of Corcoran, California Police
                             Department

  Th is memorandum is in response to yo ur Apri l 25. 2011 draft audit report for the Ci ty of
  Corcoran, Ca li fo rnia Police Department. For ease o f review, each audit recom mendation is
  stated in bo ld and underlined, followed by COPS' response to the recommendati on.

  I~ccommendation 1:    Establish a process to ensure that it onlv approves grant applications
  that complv with related funding legislation.

  Thc CO PS O lli cc concurs with the rccommcndat ion that it should establ ish a process to ensure it
  onl y approves grant applications that compl y with re lated fund ing legislat ion.

  Discussion and Management Action:

  The COPS O ffice understand s and agrees that funding of eammrked grants must comply with the
  appropriation language. Based 0 11 the language in the annual appropriati on, the CO PS Office
  develops specific grant programs to comply with and implement the purposes and programs
  identificd in the legislati on, incl udi ng identify ing items that arc genera ll y a llowab le and
  unallowable under the specific grant program.




                                                        - 59 ­
Mr. David J. Gaschke, Regional Audit Manager
June 3, 20 11
Page 2

In addition to the program guidelines, the CO PS Office has established a written policy, whi ch is
provided at Attachment I, to rev iew requests fo r items that are generally prohibited under a
sponsored (eamlark) grant program and includes the req uirement that the applicati on request
supports the overall objecti ves of the grant project and the programmatic intent of the grant
program. As referenced here, a pro hi bited item is one that is irrelevant to achi eving the
indi vidual project goal s and the program mati c intent of the grant program verses an item that is
prohibited because it is di sallowed by law.

The written policy was newly establi shed at the time the Corcoran Police Department's
Tech nology grant was awarded and not appropriately implemented for this grant. Since that
time, CO PS staff has bcen provided furt her clari fication and guidance on the proper
impl ementati on of the wrillen policy 10 be applied to fu ture grants.

Request:

Based on the discussion and management action, CO PS req uests closure of Recomm endation I .


Recommendation 2: Ensure that the Corcoran Police Department strengthen its internal
controls and establish clearly defined responsibilities for its fimmcial personnel to include
adequate separation of duties.

The CO PS Oflice concurs with the recommendation that the Corcoran Police Department (CPO)
should strengthen its internal controls and establ ish clearly defin ed responsibilities for its
financial personnel to include adequate separat ion of duti es.

Discussion and Planned Action:

The CPO agreed to impl ement thi s recommendation and will take steps to strengthen its internal
controls and estab li sh more clearl y defined responsibilities for its financial personnel, including
separation of duties. However, CPD has not provided a copy of its revised policies. We wi ll
work with CPD to obtain a copy of their revised policy when avai labl e and will ensure Ihal it
adequately addresses this recommendation. We will forward this po li cy at that tim e to the OIG
fo r review and closure oflhe recommendation.

Request:

Based on the discussion and planned action, COPS requests resolution of Recommendation 2.


Recommend.dion 3: Ensure that the Co rcoran l' olice Department establishes a rcceiving
policv that includes a uniform process for receiving all items as well as verifying that the
proper items have been received. in the correct quantity. and in good working order.

The COPS Otlice concurs wi th the recom mendation that CP D should estab li sh a receiving po li cy




                                             - 60 ­
Mr. David J . Gaschke, Regional Audit Manager
June 3, 201 1
Page 3

that includes a unifonn process for receiving all items as wel l as verifying that the proper item s
have been received, in the correct quantity, and in good worki ng order.

Discussion and Planned Action:

The CPD agreed to im plement this recommendation and will utili ze a written rece iving policy
that wi ll incl ude a uni fo rm process for recei ving all items as well as verify ing that the proper
items have been received in the correct quantity, and in good working o rder. Howeve r, C PO has
not provided a copy of its policy. We wi ll work with CPO to obtain a copy of their policy when
avai lable and wi ll ensure that it adeq uate ly addresses this reco mmendati on. We will forward this
policy at that time to the O IG for review and closure of the recommendation.

Request:

Based on the discussion and planned act ion , COPS requests resoluti on of Recommendation 3.


Recommendation 4: Ensure that the Corcoran Police Department establishes procedures
to time drawdowns as close as possible to the incurrence of expenditures.

The COPS Office concurs with the recommendation that C PO should establi sh proced ures to
time drawdowns as close as possible to the incurrence of expendi tures.

Discussion and Planned Action:

The CPO agreed to implement thi s recommendation by utilizing procedures to time drawdowns
as close as possible to the incurrence of expenditures. However, C PO has not provided a copy of
it s policy. We will work with CPO to obtain a copy of their policy when availabl e and wi ll
ensure that it adequately addresses thi s recommendation. We wi ll forward thi s po li cy at that
time to the O IG for review and closure of the reco mmendation .

Request:

Based on the di scussion and planned ac tion, COPS requests reso lution o r Recommendation 4.


Recommendation 5: Remedy $41.328 in questioned costs for Co rcoran and $52.172 for
Lemoore for failing to adequatelv backfill the required positions.

The COPS Office concurs that gran tees should not use COPS grant fund s to supplant local
hiring.

Discussion and Planned Action:

In order to remedy the $41 ,328 in questi oned costs for CPO and $52, 172 for its sub-recipient




                                            - 61 ­
Mr. David J. Gasehke, Regional Audit Manager
June 3, 20 11
Page 4

Lemoore for failing to adequately backfill the required positions, the CO PS Office has
determined that additional information and clarili cat ion is req uired be fore we can make a
dctermination as to how to proceed. We will work with the grantees to obta in additional
information. Once we have obtained this information , the CO PS Office will provide your office
with our plan to remedy the questi oned costs.

Request:

Based on the discussion and planned acti on, CO PS requcsts resolution of Rccommendation 5.


Recommendation 6: Remedy $186.907 of inadequ ately supported grant expenditures
related to personnel costs from Corcoran's sub-recipients. Hanford and Lemoore.

The COPS Office concurs that the grantees should requirc and maintain adequate support from
its sub-recipi ents for grant expe nditures related to personnel costs.

Discussion and Planned Action:

In order to rcmedy thc $ 186,907 in questioned costs for inadeq uatel y supported granl
expe nditures related to personnel costs from CP O' s sub-recipi ents, Hanford and Lemoore, the
CO PS Office has determined that add itional information and clarification is required before wc
can make a determination as to how to proceed. We wi ll work with the grantees to obtain
addi tional information. Once we have obtained this infonnati on, the COPS Oflice will provide
your office with our plan to remedy the questioned costs.

Requesl:

Based on the discussion and planned action, CO PS requests resolution of Recommendation 6.


Recommendation 7: Remedy $3.470 of unallowable grant expenditures related to KCSO 's
personnel costs that did not relate to th e grant.

The CO PS Office concurs that the gran tee should not use CO PS grant funds for personnel costs
that do not relate to the grant.

Discussion and Planned Action:

In order to remedy the $3,470 in questioned costs for unall owable grant expenditures related to
sub-rec ipient King County Sheriffs Office's (KCSO) personnel costs that did not relate to the
grant, the CO PS Office has determincd that add iti onal informat ion and clar ifi cat ion is required
belore we can make a detennination as to how to proceed. We wi ll work wi th the grantee to
obtain additional in formati on. Once we have obtained this inlormation, the CO PS Oflice will
provide your office with ou r plan to remedy the quest ioned costs.




                                            - 62 ­
Mr. David J. Gaschke, Regional Audit Manager
June 3, 2011
Page 5

Request:

Based on the discussion and planned.action, COPS requests resolution of Recommendation 7.


Recommendation 8: Remedy $36.752 of inadequately supported grant expenditures
related to personnel costs from Corcoran's sub-recipient. the KCSO.

The COPS Office concurs that grantees should maintain adequate documentation to support
grant expenditures.

Discussion and Planned Action:

In order to remedy the $36,752 in questioned costs for unallowable grant expenditures related to
personnel costs from CPD's sub-recipient KCSO, the COPS Office has detennined that
additional information and clarification is required before we can make a determination as to
how to proceed. We will work with the grantee to obtain additional infonnation. Once we have
obtained this information, the COPS Office will provide your office with our plan to remedy the
questioned costs.

 Request:

 Based on the discussion and plamled action, COPS requests resolution of Recommendation 8.


 Recommendation 9: Remedy $1,200 in unsupported canine stipends paid to a Corcoran
 police officer.

 The COPS Office concurs that grantees should maintain adequate documentation to support
 granl expenditures.

 Discussion and Planned Action:

 In order to remedy the $ 1,200 in questioned costs for unsupported canine stipends paid to the
 Corcoran police officer, the COPS Office has detennined that additional information and
 clarification is req uired before we can make a determ ination as to how to proceed. We will work
 with the grantee to obtain additional infonnation. Once we have obtained this information, the
 CO PS Office will provide your office with our plan to remedy the questioned costs.

  Request:

  Based on the discussion and planned action, COPS requests resolution of Recommendation 9.




                                           - 63 ­
Mr. David J. Gaschke, Regi ona l Audit Manager
June 3, 2011
Page 6

Recommendation 10: Ensure that the Corcoran Police Department establishes a process to
ensure expenditures arc properlv approved.

The CO PS Office concurs with the recommcndation that CPO needs to establish a process to
ensure expenditures are properly approved.

Discussion and Planned Action:

The CPO agreed to implement this recommcndati on and will develop a written payment
approval policy that will contain clearly de fin ed responsibilities and wi ll ensure that expendit ures
arc properl y approved. However, CPO has not provided a copy of thi s policy. We will work
with CPO to obtain a copy of their policy when available and will ensure that it adeq uately
addresses thi s recommendation. We will forward this policy at that time to the OIG for review
and closure of the recommendation.

Request:

Based on th e di scuss ion and planned action, CO PS requests reso luti on of Recommendation 10.


Recommendation 11: Ensure that the Corcoran Police I)epartment establishes
a formal fixed asset policy and properly records all grant-funded property purchases on its
official property records.

The CO PS Office concurs with the recommendation that CPD needs to establish a formal fi xed
asset policy to ensure that all grant-funded property purchases are recorded in its ollicial
property records.

Discussion and Planned Action:

The CPO agreed to implement this recommendation and will establish a formal fi xed asset poli cy
to ensure that all grant-funded property purchases are recorded in its official property records.
Howeve r, CP O has not provided a copy ofl hi s policy. We will work with CPO to obtain a copy
of their policy when available and will ensure that it adequately addresses thi s recomm endati on.
We will forward thi s policy at that time to the O IG for review and closure of the
recommendation.

Request:

Based on the discussion and planned action, COPS requests resolution of Recommendation II.


Recommendation 12: Ensure that the Corcoran Police Department establishes :t process
for preparing accurate and complete FSRs and that all FSI{s arc submitted in a timely
manner.




                                             - 64 ­
Mr. David J. Gaschke, Regional Audit Manager
June 3, 2011
Page 7

The CO PS Office concurs with the recommendation that CPO needs to establish a process fo r
preparing accurate and comp lete FSRs and ensuring that all FSRs are submiued in a timely
manner.

Discussion and Planned Action:

The CPD agreed to impl emen t thi s recommendati on and will estab li sh a process for preparing
accurate and complete FSRs and ensuring that all FSRs are submitted in a timely manner.
However, CPO has not provided a copy of this policy. We will work with CPO to obtain a copy
of their policy when avai lable and wi ll ensure that it adeq uate ly add resses this recommendation.
We will forward thi s policy at that time to the OIG for review and closure of the
recommendat ion.

Request:

Based   011   th e discussion and planned action, COPS requests resolution of Recommendation 12.


Recommendation 13: Ensure that the Corcoran Police Department establishes procedures
to eomplv n'ith the grant condition requiring the retention of Form 1-9s.

The COPS Office concurs with the recommendati on that CPD needs to establi sh procedures to
comply with the grant co ndition requiring the retention of Form 1-9s.

Discussion and Planned Action:

The CPD agreed to implement this recommendation and wi ll establish a process for obtaining
and retaining the Forms 1-9 for all emp loyees that will be paid fro m grant funds. However, CPI)
has not provided a copy of this policy. We will work with CPO to obtain a copy of their policy
when ava il able and will ensure that it adeq uate ly addresses this recommendation. We will
forward thi s policy at that time to the OIG for review and closure of the recommendation.

Request:

Based on the di scussio n and planned action, COPS requests resolut ion of Recommendation 13.

COPS would like to thank you for the opportunity to review and respond to the draft audit report.
If you have any questions, please contact me at 202-6 16-92 15, or yOli may email at
donald.lango@usdoj.gov.


Attachment

cc :     John I. Provan (copy providcd electronically)
         San Francisco Regional Aud it Offi ce




                                             - 65 ­
Mr. David J. Gaschke, Regional Audit Manager
June 3, 2011
Page 8


       Richard P. Theis (copy provided electroni call y)
       ,Iusti ce Management Divisio n

       Mary T. Myers (copy provided electronically)
       Justice Management Division

       Cynthia A. Bowie (copy prov ided e lectron icall y)
       Audit Liaison Division

       Nancy Daniels (copy provided electroni cally)
       Audit Liaison Di vis ion

       Mr. Ronald L. Hoggard
       City of Corcoran

       Chief Reuben Shortnacy
       Ci ty of Corcoran Police Department

       Grant Fi le 2008-CK-WX-0228 (Techno logy Grant)

       Audit File


OR I: CAO l 601




                                           - 66 ­
                                COPS Office Po licy Template

Poli cy Num ber:        Pending

Po licy Title:          Review of Unallowable Budget Costs/Items for Sponsored Grants

O rigi nating Division: G rants Admini stration

Di vision s Affected:   A ll CO PS Divisions

Effecti ve Date:        June 2008

Background

The CO PS Office prov ides guidance on implementing its programs, including identify ing
items that are generall y allowable and una ll owable under the Sponsored grant programs.
These li sts are compiled by the CO PS Office based on experi ence working wit h the
various grant programs. T he COPS Office will co ns ider requests from gran t rec ipients for
any lawful items that are generall y prohibited under a grant program if the grantee is able
to demonstrate that the request s upport s the overall object ives of the grant projecl and
congress ional and programmatic intent. The grantee must also demonstrate thaI the
objec ti ves cannot be achieved with allowab le items.

Objective

Occasionally, an agency may challenge a decision by the CO PS Office to di sallow
spec ific item s within its proposal. The objective of thi s policy is to formalize a definitive
procedure for reviewing all req uests to fund items w hich have already been deemed
unall owable. The CO PS Office will cons ider s uch requests because grant rec ipients are
on the front line and have a better understanding of what their communitie s need in order
to address emerging law enforcemen t concerns.

Procedure

If a grant recipient w ishes to contest our decision by requesting an item that is generall y
unallowable, the G rant Program Spec ialist (GPS)lPPSE Representative sho uld advise the
grantee that, in order to contest our dec isio n, it will requ ire additional documentation and
review which may sign ifi cantl y delay the receipt or drawdown of their funding.

If the grantee sti ll wishes to di spute the decision, CO PS Staff will explain that the gran tee
must submi t ajustification request in writing, wh ich clearl y o utlines the fo ll owi ng:

            How their req ucsted unallO\vab le item/cost wi ll support the overall objectives
            of the grant proj ec t and programl11uti c intent of the grant program;




                                                              ATTACHMENT 1




                                         - 67 ­
        •   Why their requested unallowable item/cost request is critical to the
            implementation of the grantee' s project, and that implementation cannot be
            achieved via other allowable items; and

        •   An affirmation that the requested unallowable item/cost is within the scope of
            congressional intent (the recipient's stated appropriation language).

The assigned GPS/PPSE Representative will receive the request in writing and review the
request for completeness. The GPS/PPSE Representative will then submit the request to
the appropriate GAD or PPSE Supervisor (or their designee) for divisional level review
and determination. The GAD and PPSE Supervisors will coordinate with each other to
ensure consistency in making determinations. When a determination cannot be made at
the divisiona l level, the request will be presented to the Earmark Working Group.

The fo ll owing criteria will be utilized in reviewing requests:

        •   the unallowab le item/cost supports the overall objectives of the grant project,
            and meets the statutory and programmatic intent of the grant program;

       •    the unallowable item/cost request is critical to the implementation of the
            grantee's project;

       •    the reason the objectives of the grant project cannot be achieved with
            allowable items;

       •    the unallowable item/cost is within the scope of the recipient ' s stated
            appropriation language;

       •    the reason why the item/cost has previously been determined by COPS         10   be
            unall owab le;

       •    the unall owable item/cost request is lawfu ll y all owable.

The approval or denia l of the requested unallowable budget item/cost will be entered into
the Earmark Administration Module (EAM) and wi ll be tracked in eMS.

For all pre-award requests, an emai l will be sent to the grantee stating whether their
request for an unallowable item/cost was approved or denied. If denied, the grantee will
be to ld that the grant funds must be used for allowable costs that support the overall
objectives of the grant project. The GPS/PPSE Representative wi ll print the email and
place it in the fi le.

For all post-award requests, a formalleller wi ll be sent to the grantee stating whether the
requested unallowable item was approved or denied. A copy of the letter will be placed in
the file. If applicable, standard modification procedures for approved items/costs must be
fo llowed.




                                          - 68 ­
                                                               APPENDIX VI

                   OFFICE OF THE INSPECTOR GENERAL
                  ANALYSIS AND SUMMARY OF ACTIONS
                    NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft copy of this audit report to COPS and the
Corcoran Police Department. Corcoran’s and COPS’ responses are
incorporated in Appendices IV and V of this final report, respectively. The
following provides the OIG analysis of the responses and a summary of
actions necessary to close the report.

Analysis of Corcoran’s Response

        In response to our draft audit report, COPS concurred with our
recommendations and discussed the actions it planned to implement in
response to our findings. Corcoran agreed with some of our
recommendations and did not concur with others. We address both types of
responses below in our analysis of individual recommendations. In addition,
Corcoran provided attachments with its response including two letters from
Congressman Jim Costa. Also, Corcoran attached letters from each of its
sub-recipients on the grant – Hanford, Lemoore, and the Kings County
Sheriff’s Office (KCSO). There were statements that were made in
Corcoran’s response, the Congressman’s letters, and the sub-recipients’
letters that did not specifically relate to a particular recommendation or
recommendations. We provide an analysis of those statements and offer
clarification, where needed.

Analysis of Corcoran’s Response

       In its response to our draft audit report, Corcoran made statements
that we believe require further clarification. First, Corcoran correctly stated
that its grant application requested funding for the salaries and benefits of
four sworn law enforcement officers that were assigned to a county narcotics
task force. Corcoran went on to reference a letter from Congressman Costa
to the Director of COPS, dated October 30, 2008, and Corcoran stated that
“the awarded grant funds were earmarked for these purposes.” This last
statement is incorrect. The COPS grant that Corcoran received was
earmarked for equipment and not for the personnel costs of sworn law
enforcement officers. We explain in detail the nature of the earmarked
grant in Finding I of our report. In short, according to the conference report
associated with the COPS Technology Program appropriation legislation,
$611,000 was designated for “Corcoran, California, Narcotics and Gang Task
Force Equipment.” Further, the funding for the grant that Corcoran received


                                    - 69 -
originated from the COPS Technology Program appropriation legislation,
which stipulates that related funds are to be used for “law enforcement
technologies and interoperable communications program, and related law
enforcement and public safety equipment.” 23

       In its response, Corcoran requested waivers for questioned costs that
were identified by our audit because it believed that its grant was consistent
with the increase of local hiring efforts funded by the American Recovery and
Reinvestment Act of 2009 (Recovery Act). Corcoran quoted from a
previously issued OIG technical advice report entitled Improving the Office of
Community Oriented Policing Services’ Grant Awarding, Monitoring, and
Program Evaluation Process that focused on COPS’ oversight and
management of Recovery Act funding. 24 We did not base our questioned
costs on the hiring nature of Corcoran’s grant application; had we done so,
we would have questioned the entire grant. Rather, we questioned costs
because Corcoran did not adhere to established government-wide grant
management requirements that applied regardless of whether the grants
were used for hiring or for technology. Further, Corcoran’s grant was not a
Recovery Act grant; therefore, the Recovery Act criteria Corcoran referenced
in its response do not apply, nor do additional Recovery Act reporting and
tracking requirements.

      Further, Corcoran’s response referred to another letter from
Congressman Costa to the Inspector General, dated May 5, 2011, in which
the Congressman stated that the awarded grant funds originated from an
earmark request from his office. Corcoran then stated that “[a]ccordingly,
normal grant review criteria are not applicable.” We disagree with this
statement. Earmarked grants are subject to government-wide regulations
governing grant management, such as the Code of Federal Regulations and
Office of Management and Budget (OMB) Circulars. We disagree with some
of the conclusions stated in Congressman Costa’s May 5 letter.




       23
            Pub. L. No. 110-161 (2008).
       24
          U.S. Department of Justice Office of the Inspector General, Improving the Office of
Community Oriented Policing Services’ Grant Awarding, Monitoring, and Program Evaluation
Process, June 2009.


                                           - 70 -
Analysis of Congressman Costa’s May 5, 2011, Letter to the OIG 25

       The Congressman’s letter states that the OIG applied the wrong
criteria when conducting the audit. Specifically, the letter states:

       Considering the amount and breakdown of the original
       appropriations request, judging the Task Force against the COPS
       Technology grant specifications simply does not make sense.
       The draft audit report that the Task Force was provided with
       references the COPS Technology Grant guidelines multiple times,
       and cites instances when the Task Force acted contrarily to those
       guidelines. It is troubling that despite explaining the background
       and specifics of this situation to both you and the Assistant
       Attorney General Ron Weich, the Kings County Task Force is still
       being held to COPS Technology Grant specifications.

       At the start of our audit, we took into consideration COPS’ approval of
Corcoran’s application to use grant funds for non-technology purposes: to
hire police officers. Because COPS approved this use of funds, we did not
apply COPS Technology Program guidelines when conducting our audit of
Corcoran and its responsibilities under the grant. Instead, we applied broad
criteria such as the public law that established COPS, the Code of Federal
Regulations, or OMB Circulars governing grant management that applies to
all grants whether they are awarded for hiring or for technology
improvements. As discussed in Finding I of our audit, we only held COPS
responsible for approving the unallowable use of Technology Program funds.
We did not fault Corcoran for using the grant funds for hiring instead of for a
technology program, and we did not make any recommendations to
Corcoran to remedy the unallowable approval of funds for non-technology
purposes. If we had held Corcoran to COPS technology requirements, we
would have questioned the entire $607,945 grant. A recommendation was
only made to COPS for this finding.

      The criteria referenced above and used in our audit was identified to
Corcoran in the award document. Specifically, the award document was
signed by Corcoran’s Chief of Police and City Manager and it included the
following statement: “By signing the Award Document to accept this
Technology Program grant, your agency agrees to abide by the following
grant conditions”. The award document goes on to list grant terms and
conditions, including rules and regulations by which the applicant must abide
       25
           The Congressman’s letter also identifies the Kings County Gangs and Narcotics Task
Force (or the Kings County Task Force, or just Task Force) as the grant recipient for the grant
that we audited. However, it was the Corcoran Police Department that applied for the grant,
was awarded the grant, and was the subject of our audit.


                                            - 71 -
that we used to audit Corcoran. Those governing laws, regulations and
guidance are found at 42 U.S.C. § 3796dd; 28 C.F.R. § 66.20,
28 C.F.R. § 66.40-41, and special conditions accompanying the grant award.
The fact that a grant is earmarked does not allow grant recipients to use the
funds in violation of rules and regulations that apply to all types of COPS
grants.

       The Congressman’s letter also states: “However, as the Department
of Justice worked with the Task Force and the City of Corcoran to
disseminate these funds, the Department decided to fund the Task Force
through a COPS Technology Grant.” This is not consistent with information
we discovered during our audit. Specifically, COPS officials advised that they
did not work with any other law enforcement agencies other than the
Corcoran Police Department in awarding the earmarked grant. In addition,
based on language in the conference report, it appears that the earmark for
Corcoran was oriented for the Technology Program and equipment
purchases at the time the appropriation was made. Specifically, the
conference report earmarked the grant for Corcoran under the heading for
“Law Enforcement Technology and Interoperability”, and specifically
identified “Corcoran, CA Narcotics Task Force Equipment.” The earmark did
not identify appropriations for the city of Corcoran or the Task Force’s
personnel expenses.

      The Congressman’s May 5 letter states: “This funding originated as an
earmark request, which was awarded through my office to allow Kings
County to participate in a nationwide effort at narcotics eradication that
spanned 15 states.” Based on our review of the grant application and award
documents, we noted that COPS directly awarded the earmarked grant to
the Corcoran Police Department. However, according to COPS officials, the
Congressman’s office contacted COPS when COPS was in the process of
awarding the grant to Corcoran. Based on the recollection of COPS officials,
those discussions included the original intent of the grant and whether to
fund sworn law enforcement officers as specified in Corcoran’s grant
application or to follow the conference report and the appropriation language
funding COPS’ Technology Program.

     The final paragraph of the Congressman’s letter states:

     These audit findings hold the Kings County Task Force to the
     standards of a grant to which they never intended to apply, and
     thus will never be able to satisfactorily meet. It is simply
     unacceptable to penalize the Task Force for an administrative
     decision made by the Justice Department.



                                    - 72 -
      As explained earlier in this analysis, the Kings County Task Force was
not the subject of our audit. In addition, our audit findings are not
penalties, but rather issues that we have identified as deviating from
established criteria that apply to the grant that was awarded. Our
recommendations are to help COPS and Corcoran adhere to rules, laws, and
regulations established by Congress and federal agencies.

General Analysis of Hanford’s Response

       Besides receiving responses to our draft audit report from COPS and
Corcoran – which attached a letter to the OIG from Congressman Jim Costa,
we also received responses from each of the sub-recipients, including the
Hanford Police Department. All of the responses are included with
Corcoran’s response in Appendix IV of this report. We individually analyzed
all of the sub-recipients’ responses because each response included different
reasoning and statements that we believed to be inaccurate and that
required a separate response. For instances where similar statements were
made by Corcoran, its sub-recipients, or Congressman Costa’s May 5 letter,
we provide our response once and then refer to that response where
necessary. In this section, we respond to several statements made by
Hanford because we want to correct what we believe are inaccurate
statements.

     In its response, Hanford stated that:

     [i]t is our understanding that the monies provided to Corcoran
     were not a grant but an earmark and did not need to be
     supported as a grant. This is further supported by the fact that
     you stated that the monies came from the [COPS] Technology
     funding source. This was clearly not a technology grant.

       Hanford’s understanding of the grant that COPS awarded to Corcoran
is inaccurate. As previously explained above in connection to the
Congressman’s May 5 letter, the fact that Corcoran received an earmark
grant does not eliminate the government-wide requirement that Corcoran
and its sub-recipients, including Hanford, were required to maintain
adequate support for grant-related expenditures.

     Additionally, Hanford stated that:

     [t]his money was used for personnel enhancement. The cities
     involved never attempted to hide this fact and were always
     transparent with what our intentions were for the use of the
     funds. To then report the use of the funds on a technology grant


                                   - 73 -
     would not make sense since the reporting on a technology grant
     would be for technological improvements and not set up for
     personnel expenditures.

      We recognize that from the time Corcoran submitted its grant
application to COPS, Corcoran was clear about its intentions to use the grant
funds to fund sworn law enforcement officer positions. We took this into
account in our audit and therefore we did not apply COPS’ Technology
Program guidance to Corcoran’s handling of the grant. Rather, we relied on
more general criteria as mentioned above that is applicable to all grants,
regardless of the underlying grant program.

       Further, Hanford stated that “[t]he Hanford Police Department was
pleased to find that according to the audit we did not supplant funds.” Our
report states that Hanford was required to maintain a headcount of 54 police
officers during the time that it was being reimbursed from the grant for its
task force police officer. We found that Hanford maintained a headcount of
54 officers for only a brief period from June 2009 to September 2009; 4
months out of an 18-month period. For the remaining months, we found
Hanford’s police officer headcount to be either one less than the target
headcount of 54 (April and May 2009) or two positions less for 12 months
(October 2009 through September 2010). However, since we provided a
5-percent vacancy rate allowance, Hanford’s actual officer level fell within
that vacancy allowance and therefore, we did not question the costs related
to personnel for reasons of supplanting.

     Hanford also stated that:

     [t]he audit did however find that the costs were not properly
     supported by documentation. Had the auditors asked for the
     documentation, The City of Hanford could have and still can
     easily provide this information in the form of officer time cards
     and expenditure reports.

       Subsequent to receiving Corcoran’s response to our draft audit report,
which included Hanford’s response, we contacted Hanford directly and
requested the documentation that it referred to in its response to our draft
audit report. As a result, Hanford provided all of its time and attendance
documentation for its grant-funded police officer. This documentation
identified the amount of time the officer worked for each pay period. In
examining the time and attendance records, we noted that the records were
labeled with the officer’s name and the designation that he was Hanford’s
task force officer. However, based on our analysis of these documents,
Hanford’s time and attendance documents did not identify how much time


                                    - 74 -
the officer worked on the task force and how much time the officer spent on
non-task force related issues. As we mentioned in the report, there is the
possibility that even if an officer were assigned to work on the task force, it
did not necessarily mean that all of the officer’s time was spent directly
working on the task force. In fact, based on our conversations with the task
force officers, we were told that there were some instances where officers
did not work on task force related issues. Therefore, even after obtaining all
of the time and attendance documentation, our finding remains. Hanford
was required to maintain support for either the time its officer spent working
on the task force, or a reasonable and supported allocation ratio for the
grant-related officer’s time.

      Finally, Hanford stated that “these [audit] issues could have been
avoided from the beginning had we been properly notified of the
expectations associated with these funds.” As stated earlier, Corcoran
signed assurances that it will follow applicable rules, laws, and regulations.
According to 28 C.F.R. § 66.40, Corcoran is responsible for monitoring sub-
recipients to “. . . assure compliance with applicable Federal
requirements . . .” Hanford officials stated that Corcoran had not provided
instructions to them concerning documentation requirements and the need
to backfill the grant funded position with an entry-level police officer. As a
result, Corcoran did not adhere to this requirement and did not adequately
monitor its sub-recipients.

General Analysis of Lemoore’s Response

       As part of its response to our draft audit report, Corcoran included a
letter from the Lemoore Police Department (included in Appendix IV). 26
Lemoore letter stated that “. . . as the Department of Justice worked with
the Task Force and the city of Corcoran to disseminate these funds, the
Department decided to fund the Task Force through a COPS Technology
Grant.” Based on our discussions with COPS, its officials worked exclusively
with Corcoran and not with other law enforcement agencies to award the
grant that we audited.

      Lemoore also stated that:

      judging the Task Force against the COPS Technology grant
      specifications simply does not make sense. The draft audit
      report that the Task Force was provided with references to COPS
      Technology Grant guidelines multiple times, and cites instances

      26
          As previously stated, Corcoran applied for the grant, was awarded the grant, and
was the subject of our audit, not the Kings County Task Force.


                                         - 75 -
       when the Task Force acted contrarily to those guidelines. It is
       troubling that despite explaining the background and specifics of
       this situation, the Kings County Task Force is still being held to
       COPS Technology Grant specifications.

       As previously explained above in connection to the Congressman’s
May 5 letter, the fact that Corcoran received an earmark grant does not
eliminate the government-wide requirement that Corcoran and its sub-
recipients, including Lemoore, were required to maintain adequate support
for grant-related expenditures. Also, our findings do not “penalize” Corcoran
or its sub-recipients, including Lemoore, for the instances of non-compliance
with established criteria, which Corcoran agreed to comply with when it
signed the grant award document (Special Condition No. 1). Rather, our
findings identify instances of non-compliance. COPS must determine
remedies that are appropriate for our questioned costs.

       In its response, Lemoore objected to our hiring analysis and the fact
that we identified periods when Lemoore did not adequately backfill and
maintain its police officer headcounts at levels required under the grant.
Lemoore stated that it hired an officer in February 2009 and that officer was
in training through June 2009. Our hiring analysis of Lemoore’s grant-
funded officer began in July 2009, when it began billing the grant for its
officer that was assigned to the task force. In reviewing this matter, we
have decided to expand our hiring analysis of Lemoore to begin in February
2009 in order to take into account the officer that Lemoore hired. We have
adjusted our hiring analysis chart, Exhibit 3, accordingly.

        Additionally, Lemoore stated on more than one occasion that it had
fulfilled its obligation of hiring a police officer as required under the grant.
Lemoore, also stated that “. . . our headcount remained consistent.” Based
on our analysis of Lemoore’s actual officer level, Lemoore may have hired an
additional officer, but it did not consistently maintain its police officer
headcount as required under the grant. Specifically, Lemoore was supposed
to not only hire a police officer to backfill the officer it assigned to the task
force, but it was required to maintain a headcount of 32 officers from
December 2009 through June 2010, and 29 officers from July to December
2010. 27 As shown by both Exhibit 3 in our report and Lemoore’s chart that it
included in its response, Lemoore failed to maintain those levels from
December 2009 through December 2010. Lemoore stated more than once
that it believes it fulfilled its obligation of hiring an officer for the grant and


       27
            As stated earlier in the report, we took Lemoore’s budget reduction into account in
our hiring analysis, which resulted in the shift in the target headcount from 32 to 29 officers
for July to December 2010.


                                            - 76 -
that the reduction in its overall officer headcount was attributable to
personnel turnover and this had no effect on the grant and task force. We
disagree. The requirement under the grant was not only to hire the
additional police officer to backfill the police officer that was assigned to the
task force, but Lemoore was also required to maintain the headcount of
police officers so as not to supplant local resources with grant funding. As a
result of Lemoore’s failure to adhere to the regulation, all grant-funded
personnel costs for the period from December 2009 through December 2010
could have been considered unallowable. However, in order to incorporate
reasonable amounts for personnel turnover, we applied a 5-percent vacancy
allowance. Therefore, the amount that we questioned was less than what
we could have questioned had we calculated each and every instance of
Lemoore’s failure to maintain the required officer level.

      Lemoore also stated that:

      [a]ll law enforcement officers are sworn to protect and serve
      regardless if they are assigned to the task force or to patrol.
      The citizens of Lemoore deserve an immediate response when a
      call for service is dispatched and if a task force member is
      closest to the vicinity, they will respond accordingly.

       Lemoore stated that “[t]ask force members are assigned to the task
force and 100% of their time is billed to the grant. The frequency of the
‘non-task force’ related response calls are extremely rare and have not been
included on timesheets as they would not demonstrate a significant amount
of time.” These statements were in response to our finding that Corcoran
and its sub-recipients, including Lemoore, failed to maintain, as required,
time and attendance records that identify how much time was spent working
on grant-related activity and non-grant related activity. The grantee, as well
as its sub-recipients, can perform non-grant related activity; however, the
grantee and its sub-recipients cannot charge federal assistance in support of
non-grant related activities. The point of our finding was to identify the
failure to maintain adequate time and attendance documentation as required
by 2 C.F.R. Part 225, Appendix B, section 8h(4), which states that “[w]here
employees work on multiple activities or cost objectives, a distribution of
their salaries or wages will be supported by personnel activity reports or
equivalent documentation.” As we identified in our report, Corcoran and its
sub-recipients did not adhere to these requirements.

General Analysis of the KCSO’s Response

       As part of its response to our draft audit report, Corcoran included a
letter from the KCSO (included in Appendix IV). As previously explained


                                     - 77 -
above in connection to the Congressman’s May 5 letter, Corcoran was
required to follow grant regulations and Corcoran’s sub-recipients, including
KCSO, were required to maintain adequate support for grant-related
expenditures.

      The KCSO in its response to our draft audit report took exception to
our hiring analysis and statements that we included in our report related to
the KCSO’s backfilling of its grant-funded law enforcement position.
Specifically, the KCSO stated that:

      [t]he [grant-funded] position was actually added to the
      allocation in July 2008 in accordance with our budget and new
      Fiscal Year. The addition of the position is noted in the published
      adopted budget books for FY08/09. A copy of the appropriate
      budget book page was emailed to the auditors on April 05, 2011,
      after our meeting with them and per their request. That
      information is not noted in their findings.

       Before the issuance of our draft audit report, we met with the Sheriff
for Kings County, and the KCSO provided budget information related to our
hiring analysis that we accepted and incorporated into our hiring analysis.
For example, in Exhibit 4 of our report, we show that the target deputy level
began at 89 in January 2009. This target level was then adjusted downward
for July 2009 through June 2010, and then adjusted downward yet again in
July 2010 to December 2010. These downward adjustments were the result
of taking into consideration budgetary changes to the KCSO’s staffing levels.
Although the KCSO’s actual deputy headcount fell below its adjusted target
levels at several points throughout our analysis, as portrayed in Exhibit 4,
we did not question related personnel costs because we applied a vacancy
allowance that resulted in the actual deputy headcount falling within the
vacancy allowance.

      The KCSO in its response commented on our finding related to the lack
of adequate documentation, including time and attendance records. The
KCSO stated that based on its review of the time studies related to its grant-
funded deputy, the KCSO found only 40 hours that were not related to the
grant activity, and therefore, not allowable under the grant. Based on the
KCSO’s documentation, it charged the grant for a total of 3,120 hours of
labor. However, the KCSO’s time and attendance records only supported
3,020 hours of activity as being related to the grant. The remaining
100 hours of labor that the KCSO charged to the grant pertained to non-
grant related activity. Therefore, we questioned the dollar equivalent of the
100 hours of labor.



                                    - 78 -
       Further, the KCSO stated that it found two additional instances of time
studies being unsigned by either the employee or a supervisor than what we
identified in our report. In our audit, we examined the KCSO’s time studies
for the pay periods between January 2009 and June 2010. As a result of our
examination, we found 13 time studies that lacked either the deputies’ or
supervisors’ signatures. The KCSO’s response did not specify whether the
time studies that it reviewed coincided with the same period of time that we
reviewed. Therefore, we are unable to comment on why the KCSO identified
a larger quantity of discrepancies than we did in our audit.

       The KCSO also stated that its time studies were used as internal
documents and therefore, they were not used to request reimbursement.
The KCSO stated that there were other signed time cards and signed
supplemental sheets that could be considered as support. We disagree with
the KCSO’s implication that its signed time cards could be used as support in
lieu of the time studies that lacked signatures because both types of
documents have a distinct, yet different purpose. The KCSO’s time cards
support the amount of time that a sheriff’s deputy works each day whereas
the KCSO’s time studies document the amount of time a sheriff’s deputy
spends on grant-related activity. Therefore, if a time study lacks an
employee’s or supervisor’s signature, a signed time card will not provide the
same assertion regarding how many hours are attributable to the grant.

Summary of Actions Necessary to Close Report

 1.   Resolved. COPS concurred with our recommendation that it establish
      a process to ensure that it only approves grant applications that
      comply with related funding legislation. COPS stated that it
      “. . . understands and agrees that funding of earmarked grants must
      comply with the appropriation language.” COPS stated that in its
      review of grant applications it identifies items that are generally
      allowable and unallowable based on the legislation that funds specific
      grant programs. COPS stated that it established a written policy that
      addressed application requests for items that are generally prohibited
      under a sponsored (earmark) grant program. COPS’ written policy,
      effective June 2008, includes a requirement that the application
      request support the overall objectives of the grant project and the
      programmatic intent of the grant program. COPS defined “prohibited
      items” in applications as items that are irrelevant to achieving the
      project goals and the programmatic intent of the grant program.
      Further, COPS stated that this written policy was newly established at
      the time it awarded the COPS Technology Program grant to the
      Corcoran Police Department and it was not appropriately implemented
      for the Corcoran grant. COPS stated that since that time it has


                                    - 79 -
     provided its staff with further clarification and guidance on the proper
     implementation of its written policy for future grant applications.

     Despite our requests during the audit for all relevant policies,
     procedures, directives, laws, and guidance, COPS did not provide us
     with the June 2008 policy until June 2011. This recommendation can
     be closed when we receive evidence that COPS has provided to its
     employees further clarification and guidance on the proper
     implementation of its written policy concerning the review of
     unallowable budget costs and items for sponsored grants.

2.   Resolved. COPS and Corcoran concurred with our recommendation
     that Corcoran strengthen its internal controls and establish clearly
     defined responsibilities for its financial personnel to include adequate
     separation of duties. COPS stated that it would work with Corcoran to
     obtain a copy of Corcoran’s revised policy related to the strengthening
     of internal controls. This recommendation can be closed when we
     receive documentation supporting Corcoran’s strengthening of its
     internal controls, including adequate separation of duties and clearly
     defined responsibilities for its financial personnel.

3.   Resolved. COPS and Corcoran concurred with our recommendation
     that Corcoran establish a receiving policy that included a uniform
     process for receiving all items as well as verifying that the proper
     items have been received, in the correct quantity, and in good working
     order. Corcoran stated that it agreed to implement this
     recommendation by utilizing a written receiving policy. This
     recommendation can be closed when we receive Corcoran’s policy
     establishing a uniform process for receiving purchased items, verifying
     that the correct items are received in the correct quantity and in good
     working order.

4.   Resolved. COPS and Corcoran concurred with our recommendation
     that Corcoran establish procedures to time drawdowns as close as
     possible to the incurrence of expenditures. COPS stated that it would
     work with Corcoran to obtain Corcoran’s policy related to drawdowns.
     Although Corcoran agreed with our recommendation, it also stated
     that it believed it was authorized to drawdown all grant funds at once
     after Congressman Costa sent a letter on October 30, 2008, to the
     Director of COPS requesting a waiver on behalf of Corcoran to bypass
     normal drawdown requirements and allow it to drawdown the entire
     grant in one lump sum. Corcoran stated that COPS authorized the
     drawdown of funds that deviated from standard protocol.



                                   - 80 -
     We asked COPS officials whether COPS authorized Corcoran to
     drawdown all grant funds in one lump sum. COPS officials told us that
     they did not authorize this deviation from regulations and they gave
     no authorization as Corcoran has stated. We asked Corcoran officials
     if they received from COPS any written response to the Congressman’s
     October 30 letter. We were told that there was no documentation of
     COPS’ approval for Corcoran to drawdown all grant funds at once.

     This recommendation can be closed when we receive documentation of
     Corcoran’s procedures requiring that drawdowns be timed as close as
     possible to the incurrence of expenditures.

5.   Resolved. COPS concurred with our recommendation that it remedy
     $41,328 in questioned costs for Corcoran and $52,172 for Lemoore for
     failing to adequately backfill the required positions. Corcoran stated
     that “[it] disagreed with our recommendation to the extent that it
     would require a recovery or offset of the questioned costs, but that it
     agrees with the recommendation to the extent that questioned costs
     would be remedied by a waiver or by providing supporting
     documentation.” COPS must determine remedies that are appropriate
     for the $41,328 in questioned costs for Corcoran and $52,172 in
     questioned costs for Lemoore. COPS in its response stated that in
     order to remedy the questioned costs, it needs additional information
     and clarification before it can make a determination on how to
     proceed. Once COPS receives additional information, it will provide
     the OIG with its plan to remedy questioned costs.

     In its response, Corcoran stated that:

           . . . regardless of whether or not [the Corcoran Police
           Department] was able to hire replacements into non-
           taskforce positions (i.e. positions not funded by the grant)
           that became vacant during the time that the newly created
           Narcotics and Gang Taskforce position was filled with grant
           funds, no supplanting occurred.

     We disagree with Corcoran’s definition of supplanting. In order to
     determine if Corcoran complied with the grant requirement that it not
     supplant local resources with federal grant funds, we compared the
     number of positions that were required under the grant with the actual
     total number of officers that were onboard throughout the period that
     Corcoran and Lemoore were being paid from the grant. Based on our
     audit results, we concluded that Corcoran and Lemoore did not
     sufficiently backfill positions to avoid supplanting local resources. For


                                   - 81 -
     example, as our report stated, Corcoran was required to maintain a
     headcount of 22 police officers during the time that it was being
     reimbursed from the grant for its task force police officer. We found
     that Corcoran maintained a headcount of 22 officers for only 2 months
     out of a 17-month period (November and December 2009). For the
     remaining 15 months, Corcoran’s actual officer headcount fell below
     the required 22. Specifically, for a total of 9 months, we found
     Corcoran’s police officer headcount to be 1 less than the target
     headcount of 22 officers. Similarly, for a 4-month period, Corcoran’s
     actual officer headcount was two positions less than required.
     Likewise, for a 2-month period, Corcoran’s actual officer headcount
     was four positions less than required. As we explained in our report,
     we applied a five-percent vacancy rate allowance to all of our hiring
     analyses. That meant that for the period where Corcoran’s actual
     officer headcount was one position less than required, it fell within the
     vacancy allowance and therefore we did not question related personnel
     costs. However, for the instances where Corcoran’s actual officer
     headcount fell 2 or 4 positions below the required 22, we took note of
     those reductions exceeding our vacancy allowance and we questioned
     the personnel costs attributable for those periods. Our report
     discussed similar results for Lemoore.

     In order to move this recommendation toward closure, COPS will need
     to make a determination on how it will remedy the $41,328 in
     questioned costs for Corcoran and $52,172 in questioned costs for
     Lemoore. COPS’ determination will affect the type of evidence that we
     will need in order to close this recommendation.

6.   Resolved. COPS concurred with our recommendation that it remedy
     $186,907 of inadequately supported grant expenditures related to
     personnel costs from Corcoran’s sub-recipients, Hanford and Lemoore.
     Corcoran stated that it “disagreed with our recommendation to the
     extent that it would require a recovery or offset of the questioned
     costs, but that it agreed with the recommendation to the extent that
     questioned costs would be remedied by a waiver or by providing
     supporting documentation.” COPS must determine remedies that are
     appropriate for the $186,907 in questioned costs. COPS stated that in
     order to remedy the questioned costs, it needed additional information
     and clarification before it can make a determination on how to
     proceed. Once COPS receives additional information, it will provide
     the OIG with its plan to remedy questioned costs.

     Corcoran stated that both Hanford and Lemoore were:



                                   - 82 -
           . . . willing to provide the supporting timesheets and/or
           appropriate certifications to establish that, on average,
           their taskforce officer spent 100% of their time on grant-
           funded activities, with only de minimus involvement in
           non-taskforce emergency service calls which were turned
           over right away to non-taskforce officers.

     Our audit found that as the primary grantee, Corcoran did not
     maintain as required support for its sub-recipients’ expenditures.
     Based on our interviews with officials from Hanford and Lemoore, we
     were told that Corcoran did not request timesheets or other
     documentation and had Corcoran asked Hanford and Lemoore, both
     agencies would have been willing to provide any required
     documentation. After we issued our draft audit report, we contacted
     each of the sub-recipients, including Hanford and Lemoore, in order to
     determine if any had additional documentation that we did not
     previously request or that the sub-recipients considered important for
     us to review before issuing the final report. As a result, Hanford
     provided all of its time and attendance records for its grant-funded
     officer. We examined the documents that Hanford provided to us and
     we found that Hanford failed to track the officer’s activity (whether or
     not it was grant-related) as required. Similarly, we made the same
     request of Lemoore and we were told by a Lemoore Official that they
     did not have any additional documents for us to review. The Lemoore
     Official did express that it would have been much more helpful if
     Corcoran provided guidance early on in the life of the grant in order to
     allow Lemoore to track and maintain documentation that was required
     under the grant.

     In order to move this recommendation toward closure, COPS will need
     to make a determination on how it will remedy the $186,907 in
     questioned costs. COPS’ determination will affect the type of evidence
     that we will need in order to close this recommendation.

7.   Resolved. COPS concurred with our recommendation that it remedy
     $3,470 of unallowable grant expenditures related to the KCSO’s
     personnel costs that did not relate to the grant. Corcoran stated that
     “[it] disagreed with our recommendation to the extent that it would
     require a recovery or offset of the questioned costs, but that it agreed
     with the recommendation to the extent that questioned costs would be
     remedied by a waiver or by providing supporting documentation.”
     COPS must determine remedies that are appropriate for the $3,470 in
     questioned costs. COPS in its response stated that in order to remedy
     the questioned costs, it needs additional information and clarification


                                   - 83 -
     before it can make a determination on how to proceed. Once COPS
     receives additional information, it will provide the OIG with its plan to
     remedy questioned costs.

     In order to move this recommendation toward closure, COPS will need
     to make a determination on how it will remedy the $3,470 in
     questioned costs. COPS’ determination will affect the type of evidence
     that we will need in order to close this recommendation.

8.   Resolved. COPS concurred with our recommendation that it remedy
     $36,752 of inadequately supported grant expenditures related to
     personnel costs from Corcoran’s sub-recipient, the KCSO. Corcoran
     stated that “[it] disagreed with our recommendation to the extent that
     it would require a recovery or offset of the questioned costs, but that it
     agreed with the recommendation to the extent that questioned costs
     would be remedied by a waiver or by providing supporting
     documentation.” COPS must determine remedies that are appropriate
     for the $36,752 in questioned costs. COPS in its response stated that
     in order to remedy the questioned costs, it needs additional
     information and clarification before it can make a determination on
     how to proceed. Once COPS receives additional information, it will
     provide the OIG with its plan to remedy questioned costs.

     Corcoran stated that the KCSO was:

           . . . willing to provide the supporting timesheets and/or
           appropriate certifications to establish that, on average,
           their taskforce officer spent 100% of their time on grant-
           funded activities, with only de minimus involvement in
           non-taskforce emergency service calls which were turned
           over right away to non-taskforce officers.

     Our audit found over a dozen of the KCSO’s time studies lacking
     signature from the employee, the employee’s supervisor, or both. The
     KCSO time studies are different than time cards in that the KCSO’s
     time cards tracked the number of hours, dates, and times when the
     KCSO Deputy worked. The KCSO time studies, on the other hand,
     showed how the Deputy’s time was allocated among programs,
     including grant-related activity. Our audit found instances where the
     KCSO’s time studies lacked approvals, as required by
     2 C.F.R. Part 225.

     In its response, Corcoran stated that “[t]he funding was specifically
     earmarked for these broad purposes and therefore formal grant


                                    - 84 -
     requirements should not be used as a benchmark.” As stated earlier
     in our analysis, the fact that Corcoran received an earmarked grant
     does not eliminate the requirement that it comply with federal
     regulations governing proper grant management, including the need to
     maintain adequate support and authorizations for grant-related
     expenditures. Corcoran’s sub-recipient, the KCSO, failed to maintain
     adequate documentation to support the personnel costs of the KCSO
     Deputy that was assigned to the task force.

     In order to move this recommendation toward closure, COPS will need
     to make a determination on how it will remedy the $36,752 in
     questioned costs. COPS’ determination will affect the type of evidence
     that we will need in order to close this recommendation.

9.   Resolved. COPS concurred with our recommendation that it remedy
     $1,200 of unsupported canine stipends paid to a Corcoran police
     officer. Corcoran stated that “[it] disagreed with our recommendation
     to the extent that it would require a recovery or offset of the
     questioned costs, but that it agreed with the recommendation to the
     extent that questioned costs would be remedied by a waiver.” COPS
     must determine remedies that are appropriate for the $1,200 in
     questioned costs. COPS in its response stated that in order to remedy
     the questioned costs, it needs additional information and clarification
     before it can make a determination on how to proceed. Once COPS
     receives additional information, it will provide the OIG with its plan to
     remedy questioned costs.

     Corcoran also stated that “. . . the canine was obviously used for
     narcotic detection purposes, which is within the broad scope for which
     the funding was awarded.” The use of the canine was not clarified
     during our audit. For example, we interviewed the police officer that
     was assigned to the task force and was receiving the canine stipend.
     The police officer explained that he was temporarily maintaining the
     canine until it could be assigned to another officer. The canine was
     not officially assigned to participate in the task force as Corcoran
     implies with its response. Further, narcotics detection is not the only
     form of service that Corcoran’s canine can perform. For example, the
     canine unit can assist on patrols and track fugitives among a variety of
     law enforcement services that would not directly relate to narcotics
     detection or task force assignments. As stated in our report, we
     requested from Corcoran support for any involvement that the canine
     had with regards to the task force, including narcotics detection.
     Corcoran provided documentation related to two instances in which it
     used the canine for what we considered to be generally related to


                                   - 85 -
    the grant. Hence, for each instance we gave credit to Corcoran for
    each pay period in which the canine was used for grant-related
    purposes, even though it consisted of only one day of involvement out
    of the pay period. In total, we gave Corcoran credit for 2 pay periods
    (4 weeks) of canine stipends. We questioned the remaining stipends
    for which Corcoran lacked any documentation to support that its
    canine was involved in grant-related activity.

    In its response, Corcoran stated that “[t]he fact that the funding was
    specifically earmarked for the taskforce and these broad purposes
    supports the conclusion that formal grant requirements should not be
    used as a benchmark for this expenditure.” As stated earlier in our
    analysis, the fact that Corcoran received an earmarked grant does not
    eliminate the requirement that it comply with federal regulations
    governing proper grant management, including the need to maintain
    adequate support for grant-related expenditures. Except in two
    instances, Corcoran failed to maintain adequate documentation to
    support its assertions that the canine was used for grant-related
    purposes.

    In order to move this recommendation toward closure, COPS will need
    to make a determination on how it will remedy the $1,200 in
    questioned costs. COPS’ determination will affect the type of evidence
    that we will need in order to close this recommendation.

10. Resolved. COPS and Corcoran concurred with our recommendation
    that Corcoran establish a process to ensure expenditures are properly
    approved. COPS stated that it will work with Corcoran to obtain a
    policy requiring proper approval of its grant-related expenditures.
    Corcoran stated that it would develop a policy that will clearly define
    responsibilities for each person in the expenditure and approval
    process. This recommendation can be closed when we receive a copy
    of Corcoran’s policy to ensure its expenditures are properly approved.

11. Resolved. COPS and Corcoran concurred with our recommendation
    that Corcoran establish a formal fixed asset policy and properly record
    all grant-funded property purchases on its official property records.
    COPS stated that it will work with Corcoran in obtaining Corcoran’s
    fixed asset and property policy. This recommendation can be closed
    when we receive a copy of Corcoran’s fixed asset and property policy
    that ensures all grant-funded property is properly recorded.

12. Resolved. COPS and Corcoran concurred with our recommendation
    that Corcoran establish a process for preparing accurate and complete


                                  - 86 -
    FSRs and that all FSRs are submitted in a timely manner. COPS stated
    that it would work with Corcoran to obtain Corcoran’s policy related to
    financial reporting. Corcoran stated that it plans to utilize a process
    for preparing accurate and complete financial reports and scheduling
    the report due dates on its calendar. This recommendation can be
    closed when we receive a copy of Corcoran’s written policies or
    procedures that will ensure that it submits in a timely manner accurate
    and complete financial reports.

13. Resolved. COPS and Corcoran both concurred with our
    recommendation that Corcoran establish procedures to comply with
    the grant condition requiring the retention of Forms I-9. COPS stated
    that it will work with Corcoran to obtain Corcoran’s policy for obtaining
    and retaining Forms I-9 for all employees paid from grant funds.
    Corcoran stated that its Human Resources Coordinator for the City
    already verifies Forms I-9 for all new hires. When we conducted our
    audit, we found that neither the City of Corcoran nor its Police
    Department maintained the Forms I-9 as required by the grant
    condition and instructions accompanying the Form I-9. In its
    response, Corcoran stated that it would have its Police Department
    begin maintaining copies of each Form I-9 for all Corcoran Police
    Department employee positions funded by federal grants. This
    recommendation can be closed when we receive a copy of Corcoran’s
    written procedures ensuring that it maintain all Forms I-9 as required.




                                   - 87 -
